APPENDIX TABLE OF CONTENTS
Per Curiam Order of the United States Court of
Appeals for the District of Columbia Circuit
(August 22, 2019) ............................................... 1a
Memorandum Opinion of the United States
District Court for the District of Columbia
(March 6, 2019) ................................................... 3a
Relevant Statutory Provisions ............................... 10a
Transcript of Motion Hearing
(February 27, 2019) .......................................... 25a
United States’ Motion to Dismiss
(November 13, 2018) ........................................ 50a
Third Amended Complaint
(March 27, 2018) ............................................... 57a
Memorandum by Michael D. Granston
(January 10, 2018).......................................... 121a
Servicer Participation Agreement
(November 29, 2018) ...................................... 137a
Making Home Affordable Handbook for Servicers
of Non-GSE Mortgages, Relevant Excerpts
(August 17, 2012) ........................................... 151a

App.1a
PER CURIAM ORDER OF THE
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
(AUGUST 22, 2019)
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
________________________
UNITED STATES OF AMERICA,
EX REL. LAURENCE SCHNEIDER, ET AL,
and
LAURENCE SCHNEIDER,

Appellant,
v.
JPMORGAN CHASE BANK,
NATIONAL ASSOCIATION, ET AL.,

Appellees.

________________________
No. 19-7025
September Term, 2018

Lower Court Case No. 1:14-cv-01047-RMC
Before: HENDERSON, SRINIVASAN, and
RAO, Circuit Judges.
ORDER
Upon consideration of the motion for summary
affirmance, the response thereto, the supplement, the

App.2a
replies, and the notice to join the motion for summary
affirmance; and the motion for summary reversal, the
responses thereto, and the reply, it is
ORDERED that the motion for summary affirmance be granted and the motion for summary reversal
be denied. The merits of the parties’ positions are so
clear as to warrant summary action. See Taxpayers
Watchdog, Inc. v. Stanley, 819 F.2d 294, 297 (D.C. Cir.
1987) (per curiam). The district court properly dismissed appellant’s qui tam action. The False Claims
Act “give[s] the government an unfettered right to
dismiss [a qui tam] action,” Swift v. United States,
318 F.3d 250, 252 (D.C. Cir. 2003), and appellant
presented no evidence of “fraud on the court or any
similar exceptional circumstance to warrant departure
from the usual deference we owe the Government’s
determination whether an action should proceed in
the Government’s name,” Hoyte v. American National
Red Cross, 518 F.3d 61, 65 (D.C. Cir. 2008); see also
id. at 65 n.4 (noting that the court has “declined to
adopt the judicial review standard for a qui tam
action endorsed by the Ninth Circuit, under which
the Government must initially show that dismissal is
‘rationally related to a valid purpose,’ after which the
relator bears the burden to show the decision to dismiss is ‘fraudulent, illegal, or arbitrary and capricious’”)
(quoting Swift, 318 F.3d at 252)).
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to withhold
issuance of the mandate herein until seven days after
resolution of any timely petition for rehearing or
petition for rehearing en banc. See Fed. R. App. P. 41(b);
D.C. Cir. Rule 41.
Per Curiam

App.3a
MEMORANDUM OPINION OF THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
(MARCH 6, 2019)
UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA
________________________
UNITED STATES OF AMERICA, ET AL.,
EX REL. LAURENCE SCHNEIDER,

Plaintiffs,
v.
J.P. MORGAN CHASE BANK, N.A., ET AL.,

Defendants.

________________________

Civil Action No. 14-1047 (RMC)
Before: Rosemary M. Collyer,
United States District Judge.
Pursuant to the Federal False Claims Act and
similar State and District of Columbia laws, Relator
Laurence Schneider sued J.P. Morgan Chase Bank,
N.A., J.P. Morgan Chase & Co., and Chase Home
Finance LLC (collectively “Chase”) and argued Chase
submitted false claims relating to the National
Mortgage Settlement and false claims relating to the
Home Affordable Modification Program (HAMP) to
decrease its liability to the Federal Government.
After over five years in litigation both in front of this

App.4a
Court and the D.C. Circuit, the United States has
moved to dismiss the case pursuant to 31 U.S.C. § 3730
(c)(2)(A), which permits the United States to dismiss
a qui tam action “notwithstanding the objections of
the person initiating the action.” The Court held a
hearing on the motion, as required by the statute,
and based on the representations made in the briefs
and at the hearing will grant the motion.
I. FACTS
The general background and facts of this case are
set forth in detail in this Court’s opinion on Chase’s
Motion to Dismiss the Second Amended Complaint and
will not be repeated here except as necessary to
understand the posture of the current motion. See

United States ex rel. Schneider v. J.P. Morgan Chase
Bank, N.A., 224 F. Supp. 3d 48, 50-53 (D.D.C. 2016)
(Schneider I ).

On May 6, 2013, Mr. Schneider filed his initial
Complaint as Relator under the False Claims Act, see
31 U.S.C. § 3730(b)(1), in the United States District
Court for the District of South Carolina. See Compl.
[Dkt. 1]. The Federal Government declined to intervene
on January 13, 2014. See Notice [Dkt. 24]. The case
was transferred to this Court on June 19, 2014. See
Transfer Order [Dkt. 58]. Relator filed his First
Amended Complaint on November 17, 2014. See FAC
[Dkt. 80]. On August 31, 2015, the Federal Government
again declined to intervene. See FAC Notice [Dkt.
96]. Relator filed a Second Amended Complaint on
October 2, 2015. See SAC [Dkt. 102]. Defendants moved
to dismiss on November 12, 2015. See Mot. [Dkt. 105].
The Court granted the motion to dismiss and dismissed
Mr. Schneider’s HAMP claim without prejudice and all

App.5a
other claims with prejudice. See Schneider I, 224 F.
Supp. 3d 48. The D.C. Circuit affirmed and remanded
the case to this Court to allow Mr. Schneider an
opportunity to file a motion to amend his complaint
to modify the claim that had been dismissed without
prejudice. See United States ex rel. Schneider v.
JPMorgan Chase Bank, Nat’l Ass’n, 878 F.3d 309 (D.C.
Cir. 2017) (Schneider II).
Mr. Schneider filed a Motion for Leave to File a
Third Amended Complaint; Chase opposed; and that
Motion is currently ripe for review.1 On July 2, 2018,
after the briefing on Mr. Schneider’s Motion was
completed, the United States filed a Notice indicating
its intent to evaluate the proposed amendments to
determine if dismissal is appropriate. See Notice of
Intent to Evaluate Proposed Am. Compl. and Request
to Abstain Ruling on Mot. for Leave to Amend [Dkt.
130]. The Court stayed the Motion and granted three
extensions of time to the United States as it considered
whether to move to dismiss. See 9/18/2018 Minute
Order; 10/10/2018 Minute Order; 10/23/2018 Minute
Order. On November 13, 2018, the United States moved
to dismiss the case pursuant to 31 U.S.C. § 3730(c)
(2)(A). See United States’ Mot. to Dismiss [Dkt. 135].
Mr. Schneider opposed and requested a hearing on the
1 See Relator’s Mot. for Leave to File Third Am. Compl. [Dkt. 124];
Defs.’ Mem. in Supp. of Their Opp’n to Relator’s Mot. for Leave to
File Third Am. Compl. [Dkt. 126]; Relator’s Reply to Defs.’ Opp’n
to Relator’s Mot. for Leave to File Third Am. Compl. [Dkt. 127];
Defs.’ Mot. for Leave to File Surreply in Opp’n to Relator’s Mot.
for Leave to File Third Am. Compl. [Dkt. 128]; Defs.’ Surreply
in Opp’n to Relator’s Mot. for Leave to File Third Am. Compl.
[Dkt. 128-1]; Relator’s Opp’n to Defs.’ Mot. for Leave to File
Surreply in Opp’n to Relator’s Mot. for Leave to File Third Am.
Compl. [Dkt. 129].

App.6a
motion. See Relator Laurence Schneider’s Notice of
Request for Hearing Regarding United States’ Mot.
to Dismiss [Dkt. 136]. The Court conducted that hearing on February 27, 2019.
II. LEGAL STANDARD
The False Claims Act’s “chief purpose . . . is to
prevent the commission of fraud against the federal
government and to provide for the restitution of
money that was taken from the federal government by
fraudulent means.” United States ex rel. Purcell v.
MWI Corp., 824 F. Supp. 2d 12, 15 (D.D.C. 2011). The
FCA imposes civil penalties for the submission of
false claims to the United States government. Private
parties, called relators, can sue for violations of the
FCA in the name of the United States. See 31 U.S.C.
§ 3730(b)(1). Special procedures apply in such cases,
which are called qui tam actions—”short for the Latin
phrase qui tam pro domino rege quam pro se ipso in
hac parte sequitur, which means ‘who pursues this
action on our Lord the King’s behalf as well as his
own.’” Vt. Agency of Nat’l Res. v. United States ex
rel. Stevens, 529 U.S. 765, 768 n.1 (2000). When a
plaintiff-relator files an initial complaint, it is not
immediately served on the defendant, but is instead
served on the United States along with “written disclosure of substantially all material evidence and
information the [plaintiff] possesses.” 31 U.S.C. § 3730
(b)(2). Thereafter, the case is stayed for a minimum
of sixty days, plus any extensions, while the United
States determines whether it will intervene—that is,
whether it will “proceed with the action, in which
case the action shall be conducted by the Government; or . . . decline[] to take over the action, in which
case the person bringing the action shall have the

App.7a
right to conduct the action.” Id. § 3730(b)(4)(A)-(B). If
the government declines to intervene, as happened
here, the complaint is unsealed, and the plaintiffrelator may proceed with the case. Even in cases in
which the government has declined to intervene, the
government retains special rights atypical in traditional civil actions, such as the right to receive all
pleadings, intervene at any time for good cause, see
id. § 3730(c)(3), and petition the Court for a stay of
discovery, see id. § 3730(c)(4).
Section 3730(c)(2)(A) also permits the government
to “dismiss the action notwithstanding the objections
of the person initiating the action if the person has
been notified by the Government of the filing of the
motion and the court has provided the person with
an opportunity for a hearing on the motion.” Id.
§ 3730(c)(2)(A). The D.C. Circuit has interpreted that
provision to provide the government “unfettered right
to dismiss” a qui tam action. Swift v. United States,
318 F.3d 250, 252-53 (D.C. Cir. 2003) (“Nothing in
§ 3730(c)(2)(A) purports to deprive the Executive Branch
of its historical prerogative to decide which cases
should go forward in the name of the United States.
The provision neither sets ‘substantive priorities’ nor
circumscribes the government’s ‘power to discriminate among issues or cases it will pursue.’”); see also
Hoyte v. Am. Nat’l Red Cross, 518 F.3d 61, 65 (D.C.
Cir. 2008).

App.8a
III. ANALYSIS2
The United States moves this Court to dismiss
Relator’s action under 31 U.S.C. § 3730(c)(2)(A). Mr.
Schneider opposes, arguing that the United States
does not have unfettered discretion to dismiss qui
tam actions because the Department of Justice created
internal rules to govern when to dismiss actions under
§ 3730(c)(2)(B) and in this case none of the necessary
conditions applies. Mr. Schneider spends considerable
pages to demonstrate the strength of his qui tam case
against Chase.
Despite DOJ’s internal procedures and Mr. Schneider’s argument about the strength of his allegations,
this Court is bound by Circuit precedent which holds
that the United States may, without the consent of
the Relator, dismiss actions brought on its behalf.
See Hoyte, 518 F.3d at 65; Swift, 318 F.3d at 25253.3 Before dismissing a case on such a motion from
the United States, the Court must give the Relator
2 This Court’s jurisdiction remains as described in the opinion
on Defendants’ motion to dismiss the second amended complaint.
See Schneider I, 224 F. Supp. 3d at 56. This Court has subject
matter jurisdiction pursuant to 28 U.S.C. § 1331 and 31 U.S.C.
§ 3730(a). This Court is the proper venue because the underlying
National Mortgage Settlement was approved by this Court and
Defendants conduct business in the District of Columbia. See 31
U.S.C. § 3732(a).
3 Both Swift and Hoyte mention “fraud on the court” as a
possible exception to the unfettered deference provided to the
government to dismiss qui tam suits. See Swift, 318 F.3d at 253;
Hoyte, 518 F.3d at 65. However, as in Swift and Hoyte, there is
no evidence here to suggest any fraud or any other “exceptional
circumstance to warrant departure from the usual deference we
owe the Government’s determination whether an action should
proceed in the Government’s name.” Hoyte, 518 F.3d at 65.

App.9a
an opportunity to be heard and to attempt to convince
the United States why it should allow the case to
continue. Mr. Schneider made that attempt in writing
and through counsel’s presentation at the motion
hearing on February 27, 2019. Having not been
persuaded, the United States reaffirmed its desire to
dismiss this action.
The Court finds that, consistent with Smith and
Hoyte, the United States has “unfettered discretion”
to dismiss qui tam actions, Hoyte, 518 F.3d at 65,
and having heard from Relator on the issue, the Court
will dismiss the case.
IV. CONCLUSION
For the reasons set forth above, United States’
Motion to Dismiss, Dkt. 135, will be granted. The
case will be dismissed and Relator’s Motion for Leave
to File a Third Amended Complaint and Defendants’
Motion for Leave to File Surreply will be denied as
moot. A memorializing Order accompanies this Memorandum Opinion.
/s/ Rosemary M. Collyer
United States District Judge
Date: March 6, 2019

App.10a
RELEVANT STATUTORY PROVISIONS
31 U.S.C. § 3729
(a) Liability for certain acts.—
(1) In general.—Subject to paragraph (2), any
person who—
(A) knowingly presents, or causes to be presented,
a false or fraudulent claim for payment or
approval;
(B) knowingly makes, uses, or causes to be made
or used, a false record or statement material
to a false or fraudulent claim;
(C) conspires to commit a violation of subparagraph (A), (B), (D), (E), (F), or (G);
(D) has possession, custody, or control of property or money used, or to be used, by the
Government and knowingly delivers, or
causes to be delivered, less than all of that
money or property;
(E) is authorized to make or deliver a document
certifying receipt of property used, or to be
used, by the Government and, intending to
defraud the Government, makes or delivers
the receipt without completely knowing that
the information on the receipt is true;
(F) knowingly buys, or receives as a pledge of
an obligation or debt, public property from
an officer or employee of the Government,
or a member of the Armed Forces, who lawfully may not sell or pledge property; or

App.11a
(G) knowingly makes, uses, or causes to be made
or used, a false record or statement material
to an obligation to pay or transmit money or
property to the Government, or knowingly
conceals or knowingly and improperly avoids
or decreases an obligation to pay or transmit
money or property to the Government, is
liable to the United States Government for
a civil penalty of not less than $5,000 and
not more than $10,000, as adjusted by the
Federal Civil Penalties Inflation Adjustment
Act of 1990 (28 U.S.C. § 2461 note; Public
Law 104-410 1), plus 3 times the amount of
damages which the Government sustains
because of the act of that person.
(2) Reduced damages.—If the court finds that—
(A) the person committing the violation of this
subsection furnished officials of the United
States responsible for investigating false
claims violations with all information known
to such person about the violation within 30
days after the date on which the defendant
first obtained the information;
(B) such person fully cooperated with any Government investigation of such violation;
and
(C) at the time such person furnished the United
States with the information about the violation, no criminal prosecution, civil action, or
administrative action had commenced under
this title with respect to such violation, and
the person did not have actual knowledge of
the existence of an investigation into such

App.12a
violation, the court may assess not less than
2 times the amount of damages which the
Government sustains because of the act of
that person.
(3) Costs of civil actions.—A person violating this
subsection shall also be liable to the United
States Government for the costs of a civil action
brought to recover any such penalty or damages.
(b) Definitions.—For purposes of this section—
(1) the terms “knowing” and “knowingly”—
(A) mean that a person, with respect to information—
(i)

has actual knowledge of the information;

(ii) acts in deliberate ignorance of the truth
or falsity of the information; or
(iii) acts in reckless disregard of the truth
or falsity of the information; and
(B) require no proof of specific intent to defraud;
(2) the term “claim”—
(A) means any request or demand, whether
under a contract or otherwise, for money
or property and whether or not the United
States has title to the money or property,
that—
(i) is presented to an officer, employee, or
agent of the United States; or
(ii) is made to a contractor, grantee, or
other recipient, if the money or property
is to be spent or used on the Government’s behalf or to advance a Govern-

App.13a
ment program or interest, and if the
United States Government—
(I)

provides or has provided any portion of
the money or property requested or
demanded; or

(II) will reimburse such contractor, grantee,
or other recipient for any portion of the
money or property which is requested
or demanded; and
(B) does not include requests or demands
for money or property that the Government has paid to an individual as compensation for Federal employment or as an
income subsidy with no restrictions on
that individual’s use of the money or property;
(3) the term “obligation” means an established
duty, whether or not fixed, arising from an
express or implied contractual, grantor—grantee,
or licensor—licensee relationship, from a fee—
based or similar relationship, from statute or
regulation, or from the retention of any
overpayment; and
(4) the term “material” means having a natural
tendency to influence, or be capable of influencing,
the payment or receipt of money or property.
(c)

Exemption from disclosure.—Any information
furnished pursuant to subsection (a)(2) shall
be exempt from disclosure under section 552
of title 5 .

App.14a
(d) Exclusion.—This section does not apply to
claims, records, or statements made under
the Internal Revenue Code of 1986.
31 U.S.C. § 3730
(a) Responsibilities of the Attorney General.—
The Attorney General diligently shall investigate
a violation under section 3729 . If the Attorney
General finds that a person has violated or is
violating section 3729, the Attorney General may
bring a civil action under this section against the
person.
(b) Actions by private persons.—(1) A person may
bring a civil action for a violation of section 3729
for the person and for the United States Government. The action shall be brought in the name of
the Government. The action may be dismissed
only if the court and the Attorney General give
written consent to the dismissal and their reasons
for consenting.
(2) A copy of the complaint and written disclosure of substantially all material evidence
and information the person possesses shall be
served on the Government pursuant to Rule
4(d)(4) of the Federal Rules of Civil Procedure. The complaint shall be filed in camera,
shall remain under seal for at least 60 days,
and shall not be served on the defendant
until the court so orders. The Government
may elect to intervene and proceed with the
action within 60 days after it receives both
the complaint and the material evidence
and information.

App.15a
(3) The Government may, for good cause shown,
move the court for extensions of the time
during which the complaint remains under
seal under paragraph (2). Any such motions
may be supported by affidavits or other
submissions in camera. The defendant shall
not be required to respond to any complaint
filed under this section until 20 days after
the complaint is unsealed and served upon
the defendant pursuant to Rule 4 of the
Federal Rules of Civil Procedure .
(4) Before the expiration of the 60-day period or
any extensions obtained under paragraph
(3), the Government shall—
(A) proceed with the action, in which case
the action shall be conducted by the
Government; or
(B) notify the court that it declines to take
over the action, in which case the person
bringing the action shall have the right
to conduct the action.
(5) When a person brings an action under this
subsection, no person other than the Government may intervene or bring a related
action based on the facts underlying the
pending action.
(c)

Rights of the parties to qui tam actions.—
(1) If the Government proceeds with the
action, it shall have the primary responsibility for prosecuting the action, and
shall not be bound by an act of the
person bringing the action. Such person
shall have the right to continue as a

App.16a
party to the action, subject to the limitations set forth in paragraph (2).
(2)
(A

The Government may dismiss the action notwithstanding the objections of the person
initiating the action if the person has been
notified by the Government of the filing of
the motion and the court has provided the
person with an opportunity for a hearing on
the motion.

(B) The Government may settle the action with
the defendant notwithstanding the objections
of the person initiating the action if the
court determines, after a hearing, that the
proposed settlement is fair, adequate, and
reasonable under all the circumstances.
Upon a showing of good cause, such hearing
may be held in camera.
(C) Upon a showing by the Government that
unrestricted participation during the course
of the litigation by the person initiating the
action would interfere with or unduly delay
the Government’s prosecution of the case, or
would be repetitious, irrelevant, or for purposes of harassment, the court may, in its
discretion, impose limitations on the person’s
participation, such as—
(i)

limiting the number of witnesses the
person may call;

(ii) limiting the length of the testimony of
such witnesses;

App.17a
(iii) limiting the person’s cross—examination
of witnesses; or
(iv) otherwise limiting the participation by
the person in the litigation.
(D) Upon a showing by the defendant that
unrestricted participation during the course
of the litigation by the person initiating the
action would be for purposes of harassment
or would cause the defendant undue burden
or unnecessary expense, the court may limit
the participation by the person in the litigation.
(3) If the Government elects not to proceed with
the action, the person who initiated the action
shall have the right to conduct the action. If the
Government so requests, it shall be served with
copies of all pleadings filed in the action and shall
be supplied with copies of all deposition transcripts
(at the Government’s expense). When a person
proceeds with the action, the court, without
limiting the status and rights of the person
initiating the action, may nevertheless permit the
Government to intervene at a later date upon a
showing of good cause.
(4) Whether or not the Government proceeds with
the action, upon a showing by the Government that
certain actions of discovery by the person initiating
the action would interfere with the Government’s
investigation or prosecution of a criminal or civil
matter arising out of the same facts, the court may
stay such discovery for a period of not more than
60 days. Such a showing shall be conducted in
camera. The court may extend the 60-day period

App.18a
upon a further showing in camera that the Government has pursued the criminal or civil investigation or proceedings with reasonable diligence
and any proposed discovery in the civil action
will interfere with the ongoing criminal or civil
investigation or proceedings.
(5) Notwithstanding subsection (b), the Government may elect to pursue its claim through any
alternate remedy available to the Government,
including any administrative proceeding to determine a civil money penalty. If any such alternate
remedy is pursued in another proceeding, the
person initiating the action shall have the same
rights in such proceeding as such person would
have had if the action had continued under this
section. Any finding of fact or conclusion of law
made in such other proceeding that has become
final shall be conclusive on all parties to an action
under this section. For purposes of the preceding
sentence, a finding or conclusion is final if it has
been finally determined on appeal to the appropriate court of the United States, if all time for
filing such an appeal with respect to the finding or
conclusion has expired, or if the finding or conclusion is not subject to judicial review.
(d) Award to qui tam plaintiff.—(1) If the Government proceeds with an action brought by
a person under subsection (b), such person
shall, subject to the second sentence of this
paragraph, receive at least 15 percent but
not more than 25 percent of the proceeds of
the action or settlement of the claim, depending upon the extent to which the person
substantially contributed to the prosecution

App.19a
of the action. Where the action is one which
the court finds to be based primarily on disclosures of specific information (other than
information provided by the person bringing
the action) relating to allegations or transactions in a criminal, civil, or administrative hearing, in a congressional, administrative, or Government 2 Accounting Office
report, hearing, audit, or investigation, or
from the news media, the court may award
such sums as it considers appropriate, but in
no case more than 10 percent of the proceeds, taking into account the significance
of the information and the role of the person
bringing the action in advancing the case to
litigation. Any payment to a person under
the first or second sentence of this paragraph shall be made from the proceeds. Any
such person shall also receive an amount for
reasonable expenses which the court finds
to have been necessarily incurred, plus reasonable attorneys’ fees and costs. All such
expenses, fees, and costs shall be awarded
against the defendant.
(2) If the Government does not proceed with an
action under this section, the person bringing
the action or settling the claim shall receive
an amount which the court decides is reasonable for collecting the civil penalty and
damages. The amount shall be not less than
25 percent and not more than 30 percent of
the proceeds of the action or settlement and
shall be paid out of such proceeds. Such
person shall also receive an amount for rea-

App.20a
sonable expenses which the court finds to
have been necessarily incurred, plus reasonable attorneys’ fees and costs. All such
expenses, fees, and costs shall be awarded
against the defendant.
(3) Whether or not the Government proceeds
with the action, if the court finds that the
action was brought by a person who planned
and initiated the violation of section 3729
upon which the action was brought, then
the court may, to the extent the court
considers appropriate, reduce the share of
the proceeds of the action which the person
would otherwise receive under paragraph
(1) or (2) of this subsection, taking into
account the role of that person in advancing
the case to litigation and any relevant circumstances pertaining to the violation. If
the person bringing the action is convicted
of criminal conduct arising from his or her
role in the violation of section 3729, that
person shall be dismissed from the civil
action and shall not receive any share of the
proceeds of the action. Such dismissal shall
not prejudice the right of the United States
to continue the action, represented by the
Department of Justice.
(4) If the Government does not proceed with
the action and the person bringing the
action conducts the action, the court may
award to the defendant its reasonable attorneys’ fees and expenses if the defendant
prevails in the action and the court finds
that the claim of the person bringing the

App.21a
action was clearly frivolous, clearly vexatious,
or brought primarily for purposes of harassment.
(e) Certain actions barred.—(1) No court
shall have jurisdiction over an action
brought by a former or present member
of the armed forces under subsection
(b) of this section against a member of
the armed forces arising out of such
person’s service in the armed forces.
(2)
(A) No court shall have jurisdiction over an
action brought under subsection (b) against
a Member of Congress, a member of the
judiciary, or a senior executive branch official
if the action is based on evidence or information known to the Government when the
action was brought.
(B) For purposes of this paragraph, “senior
executive branch official” means any officer
or employee listed in paragraphs (1) through
(8) of section 101(f) of the Ethics in Government Act of 1978 (5 U.S.C. App.).
(3) In no event may a person bring an action
under subsection (b) which is based upon allegations or transactions which are the subject of
a civil suit or an administrative civil money
penalty proceeding in which the Government is
already a party.
(4)
(A

The court shall dismiss an action or claim
under this section, unless opposed by the

App.22a
Government, if substantially the same allegations or transactions as alleged in the
action or claim were publicly disclosed—
(i)

in a Federal criminal, civil, or administrative hearing in which the Government or its agent is a party;

(ii) in a congressional, Government 2
Accountability Office, or other Federal
report, hearing, audit, or investigation;
or
(iii) from the news media, unless the action
is brought by the Attorney General or
the person bringing the action is an
original source of the information.
(B) For purposes of this paragraph, “original
source” means an individual who either (i)
prior to a public disclosure under subsection
(e)(4)(a), has voluntarily disclosed to the
Government the information on which allegations or transactions in a claim are based, or
(2) who has knowledge that is independent
of and materially adds to the publicly disclosed allegations or transactions, and who
has voluntarily provided the information to
the Government before filing an action
under this section.
(f)

Government not liable for certain
expenses.—The Government is not liable
for expenses which a person incurs in
bringing an action under this section.

(g) Fees and expenses to prevailing defendant.—In civil actions brought under

App.23a
this section by the United States, the
provisions of section 2412(d) of title 28
shall apply.
(h) Relief from retaliatory actions.—
(1)In general.—Any employee, contractor,
or agent shall be entitled to all relief
necessary to make that employee, contractor, or agent whole, if that employee, contractor, or agent is discharged,
demoted, suspended, threatened, harassed, or in any other manner discriminated against in the terms and
conditions of employment because of
lawful acts done by the employee,
contractor, agent or associated others
in furtherance of an action under this
section or other efforts to stop 1 or
more violations of this subchapter.
(2)

Relief.—Relief under paragraph (1)
shall include reinstatement with the
same seniority status that employee,
contractor, or agent would have had but
for the discrimination, 2 times the
amount of back pay, interest on the back
pay, and compensation for any special
damages sustained as a result of the
discrimination, including litigation costs
and reasonable attorneys’ fees. An action
under this subsection may be brought
in the appropriate district court of the
United States for the relief provided in
this subsection.

App.24a
(3) Limitation on bringing civil action.—A
civil action under this subsection may
not be brought more than 3 years after
the date when the retaliation occurred.

App.25a
TRANSCRIPT OF MOTION HEARING
(FEBRUARY 27, 2019)
UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA
________________________
LAURENCE SCHNEIDER,

Plaintiff,
v.
JP MORGAN CHASE BANK,
NATIONAL ASSOCIATION ET AL,

Defendants.

________________________

Docket No. CA 14-1047
Washington, D.C.
Wednesday, February 27, 2019, 2:05 p.m.
Before: The Hon. Rosemary M. COLLYER,
United States District Senior Judge.

[Transcript p. 1 to 28]
THE DEPUTY CLERK: Your Honor, we have civil
action 14-1047, Laurence Schneider versus JP
Morgan Chase Bank, National Association, et al.
I’ll ask that counsel please approach the lectern
and identify yourselves for the record starting
with this side of the room, please.
MR. BLACK: Joseph Black representing relator Laurence Schneider.

App.26a
THE COURT: Thank you, sir.
MR. DI MARCO: Good afternoon, Your Honor, Roberto
Di Marco for the relator Laurence Schneider.
THE COURT: Thank you, sir.
MR. COHEN: Good afternoon, Your Honor, Daniel
Cohen on behalf of the relator.
THE COURT: All right, thank you.
MR. HUDAK: Good afternoon, Your Honor, Brian
Hudak from the U.S. Attorneys office on behalf
of the United States.
THE COURT: Brian Hudak?
MR. HUDAK: Yes, ma’am.
THE COURT: Well, I certainly know your name, Mr.
Hudak, but it’s not on my sheet here. Have you
just stepped in? So sorry, you are on my sheet.
MR. HUDAK: No worries. Given that we usually appear
at the bottom of the Qui Tam docket.
THE COURT: No, yes, that’s where I was looking at
the bottom. Excuse me, so sorry.
MR. HUDAK: Thank you, Your Honor.
THE COURT: You’re right here.
Yes, sir.
MR. WICK: Good afternoon, Your Honor, Robert Wick
from Covington & Burling for the Chase defendants, JP Morgan Chase defendants.
THE COURT: Thank you, sir.
This is an interesting procedure because the government has indicated its intention to move to

App.27a
dismiss this long running case and Mr. Schneider
and counsel disagree with that plan on behalf of
the government.
As I understand the law, in the end the government gets to decide what it wants to litigate on
behalf of the United States and so the situation
now is that Mr. Schneider’s counsel, Mr. Black,
Mr. Cohen and Mr. Di Marco need to persuade Mr.
Hudak, I presume, over Mr. Wick’s objections, not
to dismiss the case. So come away and persuade.
MR. BLACK: Thank you, Your Honor. Joseph Black
again for Mr. Schneider.
I am going to speak on the legal issues associated
with the government’s motion and Mr. Di Marco
is going to discuss the evidence that we have.
That will hopefully convince the government to
withdraw its motion.
Failing that we believe that our legal issues and
the law is so great, facts are so great that under
the Swift decision which says that the government’s motion to dismiss must be denied if it can
be shown to be arbitrary and capricious.
We believe that we have strong facts that should
compel the government to let us go forward. Failing
that we believe that you should dismiss their
motion because in fact it is arbitrary and capricious
and we can show that.
THE COURT: All right.
MR. BLACK: The government has two justifications
for dismissal. First, that Mr. Schneider’s action
is without merit.

App.28a
And secondly, that the cost to the government is
so high relative to the potential recovery that the
case should be dismissed. We believe that both of
those justifications do not withstand scrutiny.
Schneider’s case presents a relatively simple case
of false certification where the certification is a
condition of payment or all the payments that
Chase received under the HAMP. Plaintiff’s
complaint is based on the proposition that Chase
certification of compliance with the HAMP were
false and therefore Chase is not entitled to any
of the payments under the HAMP.
This is a case of fraudulent inducement; that is,
all the fraud flows from the original false certification, the false certification compliance with
the underlying servicing requirements.
In discussing the fraudulent inducement notion,
the Fifth Circuit in Longhi stated even if the
subsequent claims of payment made under the
contract were not literally false because they
were derived from the original fraudulent representation, they are also actionable false claims.
The certification—
THE COURT: I’m sorry, what is the cite for that
court?
MR. BLACK: That is Longhi, U.S. ex rel Longhi v.
Lithium Power Technologies, 545 F.3d 458.
THE COURT: Thank you.
MR. BLACK: The independent cite is 468, that’s Fifth
Circuit, 2009.
THE COURT: Thank you, sir.

App.29a
MR. BLACK: Again, certification of compliance with
requirements of the HAMP was a condition precedent to receive any payment under the HAMP.
Therefore, the individual claims made for payment
were loan modifications with false claims because
of the initial certification, the initial certification
that was false.
Let me state right now that based on the evidence
this data has obtained in his related Seventh
District of New York case. You’ve probably seen
references to that case in our various pleadings.
Mr. Di Marco is going to discuss some of that
evidence. He could file summary judgment on
liability under the fraudulent inducement theory
without further discovery.
The government gives two not well thought out
reasons why Schneider’s case lacks merit. It states
notably relator does not allege that Chase received
HAMP incentive payments on loans mitigated into
Recovery One.
And then additionally, relator concedes that Chase
released liens on loans in Recovery One which
eliminated the chance of Chase foreclosing on
defrauding home mortgage—I’m sorry—foreclosing
on a defrauding homeowner because the mortgage
was no longer secured by the property.
The government does not explain how these factors
underlie Schneider’s case. Both of them are
irrelevant to the underlying issue to whether
Chase was in compliance with the HAMP servicing
requirements and whether the certification for
compliance were false.

App.30a
Notably, Chase does not make this argument in
its motion to dismiss or its opposition to the
filing of the third amended complaint.
And moreover, Schneider does have evidence that
Chase received over 65 million in HAMP payments
after February 2012 through the end of the
program for second lien modifications. This was
evidence found in the New York discovery.
In private discussions with Schneider’s counsel the
government has presented several reasons why
this case lacks merit. First, they stated that the
alleged false certifications in our case represented
conditions of payment and not—I’m sorry, conditions of participation and not conditions of
payment.
We pointed out that the Service of Participation
Agreement, the SPA, contained two specific statements that stated that the certifications were
conditions precedent to payment. We also pointed
out that the Court in Escobar, the Supreme
Court in Escobar eliminated the distinction
between conditions of payment and conditions of
certification—I’m sorry—conditions of participation and conditions of payment.
And we also demonstrated why those certifications
were false based on Chase’s internal documents.
When we identified the 65 million dollars in HAMP
payments Chase received for second liens taken
from our CD One the government was still not
satisfied.
Apparently, this did not satisfy the government
because we did not identify specific loans that
did not qualify for payment. But as noted that is

App.31a
not the requirement in a false certification case
where the fraud flows from the initial false certification.
As regard to the cost to the government, the cost
to the government of moderating this case is really
minor compared to the potential return. Payments
made to Chase under the HAMP equaled 550
million dollars. Over 80 percent of this payment
was paid after February 8th, 2012, the date set
out in the National Mortgage settlement agreement to limit Chase’s liability under the HAMP.
Therefore, single damages equals over 440 million
dollars. Even if the single damages were limited
to the 65 million that Chase received under the
HAMP, and that we have knowledge of, this is the
minimum number that we know of, the amount
that would more than justify the government’s
efforts in monitoring this case.
Mr. Di Marco is going to get up and talk about
the evidence. But we really do believe that this
is a strong case going forward and the government
should not seek to dismiss the case in that based
on the facts and evidence it truly is arbitrary
and capricious to suggest that we do not have a
good case.
THE COURT: I need to go back to the original concept
that you were addressing; that is fraud in the
inducement and if there’s fraud in the inducement,
then as I understood you to say then every claim
made thereafter is also false or fraudulent.
MR. BLACK: Yes.

App.32a
THE COURT: Okay, and that was the case out of the
Fifth Circuit. Has anybody else followed that
case, do you know?
MR. BLACK: Oh, yes, the Rogan case out of Seventh
Circuit. There’s a case of Hooper v. Lockheed
Martin in the Ninth Circuit and I believe we cited
another case in one of our pleadings and it escapes
me at the moment, but there are a number of
Circuits that have followed that.
THE COURT: Okay, I can look it up. It’s not that I
don’t have good help. Even I know how to do that
sometimes. I just was asking for the moment.
All right, I think I understand what your argument
is. I appreciate it.
MR. BLACK: Okay.
THE COURT: Thank you.
It’s Mr. Di Marco, right?
MR. DI MARCO: Yes, ma’am.
THE COURT: All right.
MR. DI MARCO: Your Honor, thank you very much
for your time today.
As Mr. Black has pointed out the standards for
payment in this matter are contained within the
Longhi case that you were just discussing with
him. In short as a condition precedent to the
payment of the performance of the obligations by
Chase, they needed to perform fully.
The SPA goes into great lengths on that particular
issue under Sections 2, Sections 3, Sections 4(C),

App.33a
and Section 4(G) of it. The SPA constantly
reiterates the issue of condition precedent.
The government is protected for any of the payments if the participant does not participate
fully. There is no obligation to pay. This is a voluntary contract. The SPA deals with billions of
dollars of taxpayer monies. Monies that were
funded from the TARP.
We have demonstrated to the government time and
time again that SPA’s conditions were not followed
by Chase. They filed demonstratively false certifications. Their own internal audits from 2010
to 2015 admit that internal controls were insufficient to comply with bank policies, law and regulations. Their internal emails admit that they
never actually checked to see whether these
properties were actually occupied.
The HAMP cite by the treasury lays this out that
it was meant to protect the homeowners. To help
people in need. They don’t know whether or not
they were helping people who actually occupied
homes.
They also released those, never released the debts
related to these lien releases. As part of the
HAMP handbook, it states that in order to
comply with HAMP when you release the lien you
must release the debt. They didn’t do that. They
continued with collection action. All of this has
become clear under the New York case.
They have also admitted that they did not engage
an application process. Part of the SPA was
collecting information from the applicants. Chase
didn’t do that.

App.34a
Now under Longhi any of these individual issues
would be sufficient to overturn the SPA payments
and activate a requirement that Chase return the
funds. This is a voluntary contract. It’s something
that is overlooked several times throughout this
process. Chase didn’t have to enter into this
agreement. These are not obligations by Chase
to get involved with HAMP. It was voluntary.
But when they volunteered to do this, when they
entered into this contract, they took on a heightened responsibility. They took TARP funds and
they stated that they would not only self-regulate
an audit but they would also self-report when
they violated the agreement.
This created a fiduciary relationship with the
American taxpayer. These were our funds. They
were entrusted with the safeguarding of our
monies and were to use them to help the most
damaged of our society, those most in need. The
homeowners who were going to lose their homes.
They agreed as one of the largest financial institutions in the country to undertake that responsibility.
The HAMP website actually states that this was
a balancing act between protecting the taxpayer
and helping banks help homeowners. That’s the
balancing that we need to be engaged in here.
They failed. Then they hid the act of failure. They
took our money. They took taxpayer money. Obviously they helped some people but then they really
profited from those funds. We have demonstrated
that.

App.35a
We have shown breaches of the trust. Their
behavior that were engaged in and are the sort
that must be brought to light. How many homeowners has Chase even to this day prosecuted in
courts of foreclosure, in courts of bankruptcy
stating that a contract is a contract and they must
abide by its exact terms. They do it all the time.
Yet here we are arguing about whether or not
they should be allowed to avoid the exact terms
of what amounts to less than a ten page contract.
They didn’t do it.
So now the government wishes to stop us and after
five years they want to sweep it all away. Our
client Mr. Schneider has as we’ve stated the private
right action in New York. He brought a case for
breaches and frauds in New York. But before that
action he brought this action. He brought this
action and he begged the government to follow
up.
When he brought his private action, discovery proceeded there first and through that discovery
millions of pages, hundreds of thousands of documents have demonstrated that
Mr. Schneider’s allegations are correct. They did
what they did without regard to the homeowners.
We showed this to the government. We shared it
with them. We demonstrated how Chase had acted.
We applied the legal standard the Government has
for itself in terms of the Longhi case and then
they pushed back and insisted upon a different
standard. That’s what it sounded like to us.

App.36a
They asked us to show if any money is coming
from the loans within the RCV One. So the RCV
One was their recovery system, it’s a cesspool of
corrupted loans. The government said, tell us
that money was given to them for loans contained
within our RCV One. Loans which Chase doesn’t
even always know where the borrower is from.
They don’t know the exact amount owed in principal balance. Tell us whether or not there is
money paid there. That’s where the 65 million
comes from. It’s monies directly connected to the
RCV One.
This was all without formal discovery in the case
you have here before you, Your Honor. When we
showed them that, they moved the goal post again.
We tried to get them to consider if we could get
loan level detail through discovery the exact
loans but instead, they responded by wanting to
dismiss us.
So now we’re in a position that I find to be unfathomable. As a taxpayer, as an attorney I don’t
understand where we are here. Chase entered into
a voluntary agreement to use tax dollars. They
breached it and now the government has stated
that they don’t want to enforce that contract pursuant to the standards set forth.
Why should Chase be allowed to keep these monies? I don’t get it personally. But Mr. Schneider
has claimed in his New York case, Your Honor,
and I’m sure that the government will bring this
up, that he’s seeking disgorgement because of
the breaches, because they used his companies
as scape goats to try and get these monies from
the government.

App.37a
We’ve made the disgorgement claim, but we’ve also
told the government that in order to avoid any
type of conflict we would waive that claim so
long as they continued to pursue those monies
on behalf of the American people, but here we
are being dismissed.
So we’ll continue if we are dismissed. If the government doesn’t change its mind, we’ll continue to
seek disgorgement because Chase should not be
allowed to keep taxpayer dollars when they did
not perform according to the specs set forth.
As a voluntary agreement if they didn’t want it
to be specific, a condition precedent, they should
have, as one of the richest companies in this
country, they should have negotiated different
terms but they wanted the money. So they got the
money but didn’t perform.
This is really very easy for the government. They
should be allowing us to continue. We have
invited the government to allow us to continue
the case. We have told them that we intend to
fight and continue to fight on this case. They
have not intervened.
We have a mediation scheduled in two weeks with
Chase on a private right action. We’ve even told
the government that they could participate as
far as we were concerned. We got no response.
It is beyond me why the government wouldn’t seek
to get monies back for the American people. All
they have been doing is supervising this case. So
their expense argument sorry, but it doesn’t hold
water.

App.38a
What I believe this Court can do, if the government
is not willing to change its mind, is to see that
this decision at this time is arbitrary. That it is
simply put, a way for them to hit some quotas
and get rid of some cases.
What I think this Court can do, what I strongly
believe it can do is to state that it’s arbitrary and
give us six months. That’s it, Your Honor. Six
months and we will file the motion for summary
judgment that my brother has laid out. Six months
in this Court can test whether or not we are telling
the truth.
The government will stand up and they will deny
this is the case. Chase will stand up and say that
we are full of it, I’m sure, but at the end of the
day this Court can decide that. Your Honor can
look at all of the evidence. Your Honor can check
out whether or not the Longhi case applies and
then Your Honor can issue a decision on the
liability.
If at the end of the day we find that it’s a zero
but they did breach for some reason they were
able to prove their monetary damages were zero,
then the government has done nothing except
spend some review time. We have asked them for
nothing.
But we owe the American people the chance to
go after this. The law says it. We’ve proven it.
And I believe that it would be highly in-just for
us to do anything else at this time.
So what I’d like to see, Your Honor, is a decision
that says right now it’s arbitrary, let’s revisit
this in six months when we all have—the discovery

App.39a
is ongoing. We just last week had expert discovery
and deposed experts in the other case. We’re going
through millions of pages and we found what we
found already with them. And we’ve constantly
updated the government as we find more information. They just need to give us the time to
continue.
Thank you for the Court’s time.
THE COURT: Thank you, sir.
Did you wish to respond?
MR. HUDAK: Your Honor, really my response is going
to be directed at what standard the Court, what
standard is governing here.
The relators are incorrect, this matter of controlling
D.C. Circuit precedent, that the standard is arbitrary and capricious, that’s the standard of a
APA review.
The D.C. Circuit has made clear that in circumstances such as this the test is government has
unfettered discretion unless it’s one small, the door
is barely closed except for one small exceptional
circumstance is where they can prove that the
government is somehow operating a fraud on the
Court. Which is despite the rhetoric and the
personal insults lodged at me about fulfilling
quotas which, Your Honor, that is not the case
here. That is not a showing that they are even
trying to make.
Swift was clarified by Hoyte, case in 2008. Judge
Henderson writing for the unanimous panel of the
D.C. Circuit concluded and characterized Swift
as saying in Swift however we flatly rejected the

App.40a
relator’s suggestion that we routinely review the
government’s decision to dismiss the Qui Tam
action, instead holding the door only barely ajar
for review in an exceptional circumstance in particular where there is fraud on the Court.
It is clear from Swift that any exception to Section
3730 (c)2(a) if there are any must be like fraud
on the Court.
Your Honor, that’s not arbitrary and capricious
review. This is not the standard of the APA in
Chevron. This is the government as the prosecutor
on behalf of the United States. Under the oaths
we took to uphold and defend the constitution
and walls of the United States whether we believe
it’s prudent to allow a lawsuit in the name of the
United States to proceed.
And in this case we’ve considered all of relator’s
evidence. They have not presented anything new
here today. In the duration of this case we have
considered all of their arguments. We have weighed
their arguments. We in fact allowed them an
attempt to convince this Court that their claims
were meritorious on their first complaint.
Instead, they created potentially adverse decisions
for the United States requiring substantial involvement by the Department of Justice at the D.C.
Circuit to weigh in and ensure that the holding
is not overly enshrined in controlling precedent
in an overly expansive matter such that it will
effect meritorious cases moving forward.
Your Honor, they have had their attempts to
convince us, had their attempts here today to
convince us. Your Honor, I am not persuaded.

App.41a
I have the authority of the U.S. Attorney to seek
the dismissal of this case and we ask that the
Court dismiss it.
THE COURT: Thank you, sir.
MR. HUDAK: Thank you.
THE COURT: Did you wish to speak, sir?
MR. WICK: May I briefly?
THE COURT: Please.
MR. WICK: Your Honor, I’m aware of the procedural
standard.
First, let me just make two preliminary observations. The first is that it’s our view that the
use of the documents from the private litigation in
this case is a violation of the protective order in
that action.
I don’t ask for any relief from this Court for what
we regard as that protective order of violation. If
we are going to seek relief, we’ll seek it in the
Southern District of New York, the Court that
issued the protective order that we think is being
violated. I just don’t want anyone to be under
the mistaken impression that we consent to or
waive objection to what we regard as the improper
use of evidence in discovery from that action to
this action.
Let me also say that I object and am very surprised
to hear that opposing counsel is talking about a
private mediation and attempt to settle that action
in this action in that they went so far as to invite
the government to that mediation even though that
mediation is not about this case, that’s improper.

App.42a
On the merits of this case, Your Honor, let me
just say the Hoyte and Swift cases couldn’t be
clearer that the standard is not arbitrary and
capricious. The Swift case specifically addresses
the question of whether the standard of review
is arbitrary and capricious and what the D.C.
Circuit for Judge Randolph said there was no,
we’re not going to follow this other California
District Court case that used an arbitrary and
capricious standard.
The standard of review is that the government has
virtually unfettered discretion to dismiss a case
if it so chooses. They left open the question of
whether if the government were committing a
fraud on the Court that might be reviewable.
So for example, if there were an accusation that
I had bribed Mr. Hudak or something, that might
be a situation in which the Court could intervene.
Absent that, the Swift decision is clear that the
Court cannot intervene.
Finally, recognizing that Mr. Hudak has already
indicated he’s not persuaded, I’ll be very brief
about this. But let me just point out two fundamental misunderstandings in the plaintiff’s argument.
In the first place, they are, they are speaking as
if the HAMP program which relates to first liens
and the 2 MP programs which relates to second
liens are one in the same program and that the
same standards apply to both. That is fundamentally incorrect.
They’re two distinct foreclosure relief programs
that were created by the Treasury Department

App.43a
Make Home Affordable Program. There are more
than two but the two at issue are HAMP. HAMP
relates to first lien mortgage loans. Now Recovery
One didn’t do first lien mortgage loans because
it’s incapable of doing it. Instead of doing first
lien mortgage loans ultimately what happened
with the Recovery One loans is that the liens
were released which meant that the homeowners
were not exposed to the risk of foreclosure and
there was no risk of frustration of the fundamental
program objective of avoiding unnecessary foreclosures.
The release of the first liens also meant that the
loans were no longer mortgage loans. At that point
they were unsecured loans akin to credit card
debt. They’re not mortgage loans and hence they
are not eligible for participation in HAMP.
There’s a different program, 2 MP for second lien
mortgage loans. Under 2 MP you don’t have to
modify the loan which is something Recovery One
can’t do. Under 2 MP you are also permitted to
extinguish, get rid of the loan, get rid of all of
the debt, write it off entirely. When you get rid
of the lien and the loan entirely in the 2 MP
extinguishment there’s nothing to service. The
loan has gone, the debt is gone.
Recovery One was capable of doing that, did do
that and it earned the 2 MP program incentives
that it claimed.
Your Honor, on reflection and in the interest of
conserving everyone’s time, I will stop there
unless the Court or Mr. Hudak have any further
questions for me.

App.44a
THE COURT: Well, in the context in which we’re
now, I’m now sitting, I do not have questions for
you. If this goes forward, then I’m going to ask
you to come back.
MR. WICK: Understood, Your Honor.
THE COURT: It was actually very helpful to have you
here for six and a half minutes, so assure your
client that I found it helpful for the six and a
half minutes, okay.
MR. WICK: Yes, Your Honor.
THE COURT: Yes, sir, Mr. Di Marco, go ahead.
MR. DI MARCO: Very, very briefly. This is why I stated
about the summary judgment issue because we
have significant issues of fact.
Very briefly, Mr. Wick has stated that RCV One
did not do first liens. It’s an interesting statement
since the New York case involves quite a bit of
first liens that were part of the RCV One.
Next, I have been told that I was improper in
bringing up the mediation. There was no confidentiality issue that was brought forward on
that. It was in the interest of bringing this thing
to a close and there was no improper action that I
sought.
And third, any of the documents which have been
shared with this Court that were not sought under
seal are documents that were not subject to the
specifics. Covington and Chase itself has filed
enumerable documents which they stated originally were to be kept out of the public view without
regard to any seal.

App.45a
If my brother were to look I’m sure he’d find those
documents among other filings that were done
by his office. So those are directed at me and so I
just wish to respond and I appreciate the Court’s
time.
As to Mr. Hudak I have all of the respect in the
world for the U.S. Attorney and there was no direct
attack to him personally that was intended. It is
simply that I understand the pressures that he
and his office are under.
I appreciate the Court’s time, Your Honor. Thank
you very much.
MR. HUDAK: Your Honor, may I be heard one second?
THE COURT: Yes.
MR. HUDAK: Your Honor, in just one follow up and I
omitted it from my remarks.
If the Court agrees with the United States that
the standard of Swift and Hoyte is what we have
said it to be, we urge the Court to make no further
rulings.
THE COURT: No, no.
MR. HUDAK: On Longhi, the scope of Longhi, because
I actually may agree one hundred percent with
them on what Longhi stands for, in the theory of
the implied, the theory of fraudulent inducement
under the False Claims Act, we may be in complete
accord on that.
So what I would not want is to have part of the
reason that we are moving to dismiss this case is
to not have further adverse law through the United
States. So we haven’t briefed the issue of Longhi

App.46a
how it would apply. We have not briefed the issue
of whether or not Chase’s conduct would violate
the Service Participation Agreement.
We don’t condone breaches of agreement that cause
harm to the United States. That’s not what we’re
about. So we would ask the Court if it believes
our interpretation of Swift and Hoyte is correct
that it decided on that limited basis as opposed
to addressing the merits of the presentation related
here today.
THE COURT: Okay, I understand exactly what you’re
saying and why I’m not quite sure because I have
to give consideration to their argument, but I do
understand the emphasis you put on Swift and
Hoyte and that’s what I would do were I you too;
they happen to be here in this Circuit.
MR. HUDAK: Thank you, Your Honor.
THE COURT: Thank you, sir.
MR. HUDAK: Thank you.
THE COURT: Did you want to add anything?
MR. WICK: Two seconds, Your Honor.
Mr. Di Marco he did say that I said Recovery
One doesn’t do first liens. I hope I didn’t say
that.
What I meant to say and what I hope I did say
and will now clarify is Recovery One does not do
loan modification. It doesn’t take a performing
mortgage loan and modify it into a different performing mortgage loan.
Recovery One does do complete and total extinguishment of loans and liens. It does not do loan

App.47a
modification. I hope that’s what I said. If not,
I’ve clarified it now.
THE COURT: Okay. Yes, sir.
MR. BLACK: If I may.
THE COURT: You should be able to get the last word
because you got the first word.
MR. BLACK: Thank you very much.
THE COURT: You’re welcome.
MR. BLACK: I just want to make one comment on
the Swift decision. The Swift decision did consider
whether or not the judge’s action was arbitrary
and capricious and it found that it was not. It
found that the relator in that case didn’t know
everything to suggest that.
What I am saying is that we have presented evidence to say that it is arbitrary and capricious. If
you read the decisions carefully you realize that
the Court went beyond just mere fraud on the
Court, fraudulent action on behalf of the government. We’re not suggesting that, but we are
suggesting that if you look at the facts and the
law in this case, you will see that we have a well
founded case and that it should go forward.
The government’s explanation as to why it should
not go forward is not given to the Court. It just
says we are the government, we don’t want this
case to go forward. And end of story.
THE COURT: Well, what they said was that this case
has already made bad law and they don’t want any
more. I think that’s what they really say.

App.48a
MR. BLACK: Well, the bad law was, it has not made
bad law. We think it was correct at the District
Court—I mean at the Court of Appeals. So we don’t
have that problem. I don’t believe.
THE COURT: I’m glad you said that the Court of
Appeals because that makes me feel slightly better.
If I made bad law for you, that’s my bad.
MR. HUDAK: There’s no bad law, Your Honor, it
depends on whose eyes is viewing.
THE COURT: Believe me, I know bad law when I see
it or at least when they’re my cases and somebody
sues them up on appeal and makes bad law and I
can tell.
MR. HUDAK: I just want to note that we did state
one of the requirements of the statute to just
concisely state the reasons for the United States
dismissing a case. We did that on page 5 of our
notice.
We believe that the claims lack substantial merit,
litigation of them would require further unnecessary expenditures of scarce governmental resources
including, if this case were to proceed, large
amounts of discovery from the Department of
the Treasury because materiality would be at
play and what treasury knew and when they knew
it would be a centralized question in any false
claims act case especially under the Supreme
Court’s test in Escobar.
Again, we do believe that we are enforced to having
cases proceed that may produce adverse decisions to the United States that we have to
distinguish and further meritorious cases at the

App.49a
axiom of bad cases make bad law and something
that we’re always concerned about. And when we
exercise our discretion to seek the dismissal of a
case, we do so, that’s one of the considerations
among many that go into the process, Your Honor.
THE COURT: All right.
I think everybody has had at least two chances
to speak. So I can consider myself blessed to
have had such good lawyering.
And I will take this all under advisement and go
back and read very carefully and come up with a
decision as quickly as I can, okay.
Thank you everybody.
(Proceedings adjourned at 2:46 p.m.)

App.50a
UNITED STATES’ MOTION TO DISMISS
(NOVEMBER 13, 2018)
UNITED STATES DISTRICT COURT
FOR DISTRICT OF COLUMBIA
________________________
UNITED STATES OF AMERICA, ET AL.,
EX REL. LAURENCE SCHNEIDER,

Plaintiffs,
v.
J.P. MORGAN CHASE BANK, N.A., ET AL.,

Defendants.

________________________

Civil Action No. 14-1047 (RMC)
Before: Rosemary M. COLLYER,
United States District Judge.
The United States of America (“United States”
or “Government”), by and through its undersigned
counsel, respectfully moves the Court to dismiss this
action pursuant to Section 3730(c)(2)(A) of Title 31 of
the False Claims Act (“FCA”).
PROCEDURAL HISTORY
On May 6, 2013, Relator Laurence Schneider
(“Relator”) filed a qui tam complaint under the False
Claims Act (“FCA”) against three members of the JP
Morgan Chase corporate family (collectively, “Chase”)
in the U.S. District Court for the District of South

App.51a
Carolina (“DSC”). See Init. Compl. (ECF No. 1). On
January 13, 2014, the United States declined to
intervene in Relator’s initial complaint. See Notice
(ECF No. 24). On June 19, 2014, pursuant to Relator’s
request, the DSC transferred the case to this Court,
which presided over the set of cases constituting the
National Mortgage Settlement (“NMS”), including an
action brought against Chase. See Order (ECF No. 58).
On November 17, 2014, Relator filed a first
amended complaint adding new claims to this action,
which complaint Relator filed under seal pursuant to
the FCA. See 1st Amd. Compl. (ECF No. 80). Relator’s
first amended complaint stated FCA claims based on
Chase’s alleged non-compliance with (i) the NMS (the
“NMS Claims”) and (ii) authorities governing Chase’s
participation in the Housing Affordable Modification
Program (“HAMP”), a loan modification program offered
by the U.S. Department of the Treasury (“Treasury”)
(the “HAMP Claims”). On August 31, 2015, the United
States declined to intervene in Relator’s first amended
complaint. See Notice (ECF No. 96). On October 2,
2015, Relator filed a second amended complaint, which
purportedly corrected certain errors and added certain
additional information that had come to Relator’s
attention since he filed his first amended complaint.
See 2d Am. Compl. (ECF No. 102). Chase moved to
dismiss Relator’s second amended complaint. See Mot.
to Dismiss (ECF No. 105).
The Court dismissed Relator’s complaint in full
on December 22, 2016, with prejudice as to the NMS
Claims and without prejudice as to the HAMP Claims.
Memo. Op. & Order (ECF Nos. 118-19); United States
ex rel. Schneider v. J.P. Morgan Chase Bank, N.A.,
224 F. Supp. 3d 48, 57, 60 (D.D.C. 2016) (Collyer, J.).

App.52a
Relator then took an appeal in which the United States
participated as amicus curiae. See Notice of Appeal
(ECF No. 120). On December 22, 2017, the D.C. Circuit
affirmed the Court’s dismissal with prejudice of the
NMS Claims on alternative grounds and affirmed the
dismissal without prejudice of the HAMP Claims.

United States ex rel. Schneider v. J.P. Morgan Chase
Bank, N.A., 878 F.3d 309, 314-15 (D.C. Cir. 2017).

On remand, Relator’s HAMP Claims are the lone
remaining claims. Relator has moved for leave to file
a third amended complaint (ECF No. 125-1) (“TAC”),
which motion remains pending and fully briefed. See
ECF Nos. 124-29. In July 2018, the United States
informed the Court that it was evaluating whether it
should seek to dismiss the remaining claims in this
case under Section 3730(c)(2)(A) of the FCA.
SUMMARY OF RELATOR’S HAMP CLAIMS
Under its HAMP program, Treasury encourages
mortgage servicers to modify certain first-lien
mortgages by reducing delinquent homeowners’
monthly payments to affordable levels so as to prevent
foreclosure. See Schneider, 224 F. Supp. 3d at 50.
HAMP servicers, such as Chase, apply a standard loan
modification procedure to achieve affordability through
reductions of interest rates, extensions of terms,
principal forbearance, and principal forgiveness. Id.
at 50, 5253. Servicers receive a one-time incentive
payment from the United States for each completed
permanent HAMP modification and an additional
incentive payment each year, for up to six years, if
the modified loan remains in good standing. See
generally id. No incentive is paid unless a borrower

App.53a
successfully makes three payments on the modified
mortgage and the loan is permanently modified. Id.
In his TAC, Relator alleges that Chase violated the
FCA by submitting claims for HAMP incentive payments that were false because Chase failed to adhere
to HAMP servicing standards. See generally TAC
¶ 1. Specifically, Relator alleges that Chase failed to
solicit properly borrowers for HAMP modifications
and perform other HAMP servicing obligations for
loans that Chase charged-off for accounting purposes
and placed onto its “Recovery One” loan platform. See
TAC ¶ 20. Notwithstanding these alleged violations,
Relator alleges that Chase submitted annual certifications with the HAMP compliance agent attesting to
Chase’s compliance with program rules. See TAC
¶¶ 195-201. Notably, Relator does not allege that
Chase received HAMP incentive payments on loans
migrated onto Recovery One. See generally TAC.
Additionally, Relator concedes that Chase released
liens on loans in Recovery One (id. ¶ 18), which
eliminated any chance of Chase foreclosing on a
defaulting homeowner because the mortgage was no
longer secured by the property.
DISCUSSION
The FCA is the Government’s primary tool for
recovering money lost from the United States Treasury
due to fraud. See generally 31 U.S.C § 3729. Its qui
tam provisions permit a private person, “a relator,”
to file an action on behalf of the United States to
recover the United States’ damages in exchange for a
payment of up to 30% of any eventual recovery. See
31 U.S.C. § 3730(b)-(d). The United States may elect
to intervene in the action and assume primary

App.54a
responsibility for the litigation, or it may decline to
intervene, which allows the relator to pursue the
action on the United States’ behalf. See 31 U.S.C.
§§ 3730(b)(2), (c). The United States also retains the
authority to dismiss an action when dismissal is in
the interests of the United States. See 31 U.S.C.
§ 3730(c)(2)(A) (“The Government may dismiss the
action notwithstanding the objections of the person
initiating the action if the person has been notified
by the Government of the filing of the motion and the
court has provided the person with an opportunity
for a hearing on the motion.”).
The D.C. Circuit has recognized that 31 U.S.C.
§ 3730(c)(2)(A) gives the United States “virtually
‘unfettered’ discretion” to dismiss a qui tam suit. See
United States ex rel. Hoyte v. Am. Nat’l Red Cross,
518 F.3d 61, 65 (D.C. Cir. 2008); Swift v. United
States, 318 F.3d 250, 251-54 (D.C. Cir. 2003). By
affording qui tam relators an opportunity for a hearing
if they request one, Section 3730(c)(2)(A) gives relators
a chance to convince the United States to change its
mind but gives the Court no role in second-guessing
the United States’ exercise of its prosecutorial discretion
to dismiss an action. See Hoyte, 518 F.3d at 65; Swift,
318 F.3d at 253 (“the function of a hearing when the
relator requests one is simply to give the relator a
formal opportunity to convince the government not to
end the case”). The D.C. Circuit has explained:
“Nothing in § 3730(c)(2)(A) purports to deprive the
Executive Branch of its historical prerogative to
decide which cases should go forward in the name of
the United States.” Swift, 318 F. 3d at 253.
In the exercise of its discretion, the United States
has determined that the specific claims remaining in

App.55a
this action should not proceed. Among other casespecific reasons guiding the sound exercise of its
unreviewable discretion, the United States believes
that Relator’s specific HAMP Claims lack substantial
merit, litigation of them would require further unnecessary expenditures of scarce Government resources,
and the United States believes it is prudent to exercise control of this litigation, including in light of its
current procedural posture.1
***
CONCLUSION
For the foregoing reasons, the United States
respectfully requests that the Relator be afforded an
opportunity for a hearing and, thereafter, that the
remaining claims in this action be dismissed with
prejudice to Relator and without prejudice to the
United States should Relator fail to change the views
of the United States.

1 The United States, acting through the Department of Justice,
has made its decision to seek the dismissal of this action based
on Relator’s specific allegations, its current understanding of
the particular facts underlying them, the particular procedural
posture of this action, and its assessment of the resources that
would be required of the United States to permit this specific
action to proceed. Accordingly, the United States’ decision to
seek dismissal of the specific HAMP Claims in this action
should not be viewed as any evidence whatsoever of its views as
to (a) the importance or significance of violations of HAMP
servicing requirements in the mine run of cases or (b) other
factors used in evaluating the materiality of any other alleged
violations of HAMP requirements. See Universal Health Servs.,
Inc. v. United States, 136 S. Ct. 1989, 2002-03 (2016).

App.56a
Respectfully submitted,
Alessio D. Evangelista
Attorney for the United States,
Acting Under Authority Conferred
by 28 U.S.C. § 515
Daniel F. Van Horn
D.C. Bar #924092
Chief, Civil Division
By: /s/
Brian P. Hudak
Assistant United States Attorney
555 Fourth Street, NW
Washington, DC 20530
(202) 252-2549

Attorneys for the
United States of America
Dated: November 13, 2018
Washington, DC

App.57a
THIRD AMENDED COMPLAINT
(MARCH 27, 2018)
UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA
________________________
UNITED STATES OF AMERICA,

Plaintiffs,
EX REL. LAURENCE SCHNEIDER,

Plaintiff-Relator,
v.
JPMORGAN CHASE BANK,
NATIONAL ASSOCIATION, J.P.
AND MORGAN CHASE & COMPANY,

Defendants.

________________________
No. 1:14-cv-01047-RMC

Before: Rosemary M. COLLYER, Judge.
{ TABLE OF CONTENTS AND
TABLE OF AUTHORITIES OMITTED }

1. This action seeks to recover damages and civil
penalties on behalf of the United States and Plaintiff/Relator Laurence Schneider (“Relator”), based on
violations of the “Amended and Restated Commitment to Purchase Financial Instrument and Servicer
Participation Agreement” (“Commitment” or “SPA”)

App.58a
entered into between the United States and Defendants, J.P. Morgan Chase Bank, National Association,
and J.P. Morgan Chase & Company (collectively
“Chase” or “Defendant” or “Company”). Under the
Commitment, Chase was required to meet servicing
standards specified in the Home Affordable Modification Program (“HAMP”) and provide loan modifications to its borrowers. Chase was paid various
amounts for each loan modification by the Government.
Chase also received additional incentive payments
based on the performance of the borrowers who received
loan modifications. Payments were conditioned upon
Chase certifying that it was in compliance with the
HAMP servicing standards. Chase falsely certified
that it was in compliance with those standards and
created false records to support each certification.
These false certifications and records were material
to the government’s decision to pay and are actionable
under 31 U.S.C. § 3729(a)(1)(A) & (B), which prohibit
knowingly submitting “a false or fraudulent claim for
payment or approval” or the use of “a false record or
statement material to a false or fraudulent claim.”
I. Introduction
2. In 2008, Congress enacted the Emergency
Economic Stabilization Act (EESA) in response to
the Great Recession. The EESA included the Troubled
Asset Relief Program (TARP) which charged the
Secretary of the Treasury with developing a program
to provide relief to struggling homeowners while
offering incentives to both the investors of these mortgages such as residential mortgage backed securities
and most importantly, the servicers like the Defendant, who are the intermediaries between the investors
and the mortgagors.

App.59a
3. In February 2009, the Government introduced
the Making Homes Affordable (“MHA”) program, a plan
to stabilize the housing market and help struggling
homeowners get relief and avoid foreclosure.
4. The U.S. Department of the Treasury (“Treasury”) established the HAMP pursuant to section 101
and 109 of the EESA.
5. In March 2009, Treasury issued uniform
guidance for loan modifications across the mortgage
industry and subsequently updated and expanded that
guidance in a series of policy announcements and
Treasury Directives.
6. The MHA program was a critical part of the
Government’s broad strategy to help homeowners avoid
foreclosure, stabilize the country’s housing market,
and improve the nation’s economy by setting uniform
and industry wide default servicing protocols, policies
and procedures for the distribution of federal and
proprietary loan modification programs.
7. As part of the MHA program, Treasury established the HAMP program to encourage investors,
servicers and borrowers to modify first liens secured
by home mortgages. Under the HAMP, servicers such
as Chase received incentive payments from the Government to modify loans.
8. Also, under the MHA program, Treasury established the second Lien Modification Program (“2MP”),
which was designed to work in tandem with HAMP.
In this Complaint, any allegations of violations related
to second liens will be treated as violations of the
HAMP.

App.60a
9. In March 2009, Treasury issued uniform guidance for loan modifications across the mortgage
industry and subsequently updated and expanded that
guidance in a series of policy announcements. Subsequently, Treasury, incorporated this guidance into the
Making Home Affordable Program Handbook for
Servicers of Non-GSE Mortgages (“MHA Handbook”)1,
which was intended to provide a consolidated resource
for programmatic guidance related to the MHA
Program for mortgage loans that are not owned or
guaranteed by Fannie Mae or Freddie Mac (Non-GSE
Mortgages).
10. The MHA Handbook was incorporated by
reference into Chase’s SPA as the guidance document
for servicing and modifying non-GSE mortgages.
11. In March 2012, the Federal Government and
the States filed a complaint against Chase and the
other banks responsible for the fraudulent and unfair
mortgage practices that cost consumers, the Federal
Government, and the States tens of billions of dollars.
Specifically, the Government alleged that Chase, as
well as other financial institutions, engaged in improper
practices related to mortgage origination, mortgage
servicing, and foreclosures, including, but not limited
to, irresponsible and inadequate oversight of the
banks’ quality control standards.
12. These improper practices had previously been
the focus of several administrative enforcement actions
by various government agencies, including but not
1 The MHA Handbook has been updated many times. The version
cited in this Complaint is v4.0, which can be found at: https://
www.hmpadmin.com/portal/programs/docs/hamp_servicer/mhahand
book_40.pdf

App.61a
limited to, the Office of the Controller of the Currency,
the Federal Reserve Bank and others. Those enforcement actions resulted in various other Consent Orders
that are still in full force and effect.
13. In April 2012, the United States District
Court for the District of Columbia approved a settlement between the Federal Government, the States,
the Defendant and four other banks, which resulted
in the National Mortgage Settlement Agreement
(“NMSA”). The operative document of the NMSA was
the Consent Judgment (“Consent Judgment” or “Agreement”). The Consent Judgment contains, among other
things, Consumer Relief provisions. The Consumer
Relief provisions required Chase to provide over $4
billion in consumer relief to their borrowers. This relief
was to be in the form of, among other things, loan
forgiveness and refinancing. Under the Consent Judgment, Chase received “credits” towards its Consumer
Relief obligations by forgiving or modifying loans it
maintained as a result of complying with the procedures and requirements contained in Exhibits D and
D-1 of the Consent Judgment.2

2 The NMSA contains a release from liability under the False
Claims Act for “Covered Servicing Conduct [including violations
of the HAMP] that has taken place as of 11:59 p.m., Eastern
Standard Time, on February 8, 2012.” Consent Judgment,
Exhibit F, Terms and Conditions, ¶ (2)(a) at F12-13, United
States v. Bank of Am. 12-cv-361, ECF 10 (D.D.C. April 4, 2012).
Chase waived this release as a defense when it failed to raise it
in its first motion to dismiss filed on November 12, 2015, ECF
105. Moreover, even if Chase were released from its violations
of the HAMP occurring before February 8, 2012, it still would be
liable for its continuing violations occurring after that date as
alleged in this Complaint.

App.62a
A. Chase Violated the HAMP Requirements Since
the HAMP’s Inception in 2009
14. Before the Consent Judgment was entered
into, Chase sold a significant amount of its mortgage
obligations to individual investors. Between 2006 and
2010, the Relator bought the rights to thousands of
mortgages owned and serviced by Chase. Unbeknownst
to the Relator, these mortgages were saturated with
violations of past and present regulations, statutes and
other governmental requirements for first and second
federally related home mortgage loans.
15. After both the MHA program was in effect
and the Consent Judgment was signed, numerous
borrowers, whose 2nd lien mortgages had been sold by
Chase to the Relator, received debt-forgiveness letters
from Chase that were purportedly sent pursuant to
the Consent Judgment.
16. Relator, through his contacts at Chase, was
made aware that 33,456 letters were sent by Chase
on September 13, 2012 to second-lien borrowers.
On December 13, 2012 another approximately 10,000
letters were sent, and on January 31, 2013 another
approximately 8,000 letters were sent, for a total of
over 50,000 debt-forgiveness letters. These letters
represented to the recipient borrowers that, pursuant
to the terms of the NMSA, the borrowers were
discharged from their obligations to make further
payments on their mortgages, which Chase stated, it
had forgiven as a “result of a recent mortgage servicing
settlement reached with the states and federal
government.” None of these borrowers made an
application for a loan modification as required by the
MHA program or the Consent Judgment. These letters
were not individually reviewed by Chase to ensure

App.63a
that Chase actually owned the mortgages or to ensure
the accuracy and integrity of the borrower’s information but instead were “robo-signed”; each of the
letters sent out was signed by “Patrick Boyle” who
identified himself as a Vice President at Chase.
17. Relator’s experience with Chase’s baseless
debt-forgiveness letters was not unique. Several other
investors were also affected by Chase choosing to
mass mail the “robo-signed” debt-forgiveness letters
to thousands of consumers from its system of records
in order to earn credits under the terms of the Consent
Judgment and to avoid detection of its illegal and discriminatory loan servicing policies and procedures.
18. In addition to the debt forgiveness letters sent,
after both the MHA program was in effect and the
Consent Judgment was signed, Chase quietly released
the 1st mortgages, which it previously charged off.
For most of these lien releases, Chase did not inform
the borrower of the release and did not release the
borrower from the debt on the loan. Relator learned
of this practice because it occurred on almost all of
the loans that Chase had sold to him.
19. Relator, through his third-party servicer,
which was handling normal and customary default
mortgage servicing activities, was made aware that
several lien releases were filed in the public records
on mortgage loans that were owned by Relator in the
fall of 2013. Through Relator’s subsequent investigation
of the property records for 1st mortgage loans that
Chase had previously sold to Relator scores of additional
lien releases were also discovered.
20. During the course of Relator’s investigation
of Chase’s servicing practices, he discovered that Chase

App.64a
maintains a large set of loans outside of its primary
System of Records (“SOR”), which is known as the
Recovery One population (“RCV1” or “RCV1 SOR”.)
Once loans had been charged off by Chase, Chase
stopped servicing the loans according to the requirements of Federal law, the MHA programs, the Consent
Judgment, or any of the other consent orders or
settlements reached by Chase with any government
agency. As a result the accuracy and integrity of the
information pertaining to the borrowers’ accounts
whose loans became part of the RCV1 population was
and is fatally and irreparably flawed.
21. Chase’s practice of sending unsolicited
debt-forgiveness letters to intentionally pre-selected
borrowers of valueless loans did not meet the requirements for obtaining incentives under the HAMP. This
practice enabled Chase to reduce its cost of complying
with the MHA program and the Consent Judgment,
while at the same time enhancing its own profits
through MHA incentives and unearned Consumer
Relief credits. Chase sought to take credit for valueless
charged-off and third-party owned loans instead of
applying the Consumer Relief under the NMSA and
MHA loan modification programs to properly vetted
borrowers who could have applied for and benefitted
from the relief and modification programs, those
borrowers that were originally intended by the Government to receive the benefit of the Government’s
bargain with Chase.
22. Relator conducted his own investigations and
found that the Defendant sent loan forgiveness letters
to consumers for mortgages that Chase no longer
owned. Further, Chase failed to meet its obligations
to service loans and to prevent blight as required by

App.65a
SPA. Chase’s intentional failure to monitor report
and/or service these loans, and its issuance of invalid
loan forgiveness letters and lien releases, evidence an
attempt to thwart the goal of the MHA program. The
purpose of this scheme was to quickly satisfy the
Defendant’s Consumer Relief obligations as cheaply
as possible, without actually providing the relief that
Chase promised in exchange for the settlement that
Chase reached with the Federal Government and the
States. In addition, Chase applied for and received
MHA incentive payments without complying with the
MHA mandatory requirements. In short, Chase
decreased its liabilities, increased its revenues, avoided
its obligations, and provided little to no relief to
consumers.
23. On September 29, 2010, Chase submitted an
initial certification of compliance with the SPA and
MHA program. Annually thereafter, Chase submitted
subsequent certifications of compliance. The initial
and subsequent certifications were largely identical.
The subsequent certifications contained the following
statements:
2.

In connection with the Programs, Servicer
is in material compliance with, and certifies
that all Services have been materially performed in compliance with, all applicable
Federal, state and local laws, regulations,
regulatory guidance, statutes, ordinances,
codes and requirements, including, but not
limited to, the Truth in Lending Act, 15
USC 1601 § et seq., the Home Ownership
and Equity Protection Act, 15 USC § 1639,
the Federal Trade Commission Act, 15 USC
§ 41 et seq., the Equal Credit Opportunity

App.66a
Act, 15 USC § 701 et seq., the Fair Credit
Reporting Act, 15 USC § 1681 et seq., the
Fair Housing Act and other Federal and
state laws designed to prevent unfair, discriminatory or predatory lending practices
and all applicable laws governing tenant
rights, bankruptcy, mediation and foreclosure.
...
3.

Servicer has materially complied with the
following: (i) performed its obligations in
accordance with the Agreement and in
accordance with accepted servicing practices,
and has promptly provided such performance
reporting on the Programs as Fannie Mae
and Federal Home Loan Mortgage Corporation, a federally chartered corporation, acting
as compliance agent of the United States
(“Freddie Mac”) have reasonably required;
(ii) all Services relating to benefits under the
Programs available to eligible borrowers
have been offered by Servicer to such borrowers, fully documented and administered
by Servicer in accordance with the applicable
Program Documentation then in effect; and
(iii) all data, collection information and
other information reported by Servicer to
Fannie Mae and Freddie Mac under the
Agreement, including, but not limited to,
information that was relied upon by Fannie
Mae and Freddie Mac in calculating the
Purchase Price and in performing any
compliance review, was true, complete and
accurate in all material respects, and consistent with all relevant business records of

App.67a
the Servicer, as and when provided or, if
such information was provided from third
parties, including borrowers or prior servicers,
Servicer has no knowledge that such information is incorrect or incomplete at the time it
was provided to Fannie Mae or Freddie Mac.
Notwithstanding the above, Servicer may
have inadvertently violated any of the above,
but has taken or will take all necessary
actions to rectify any such violation or lack
of compliance.
4.

Servicer has materially complied with the
following: (i) performed the Services required
under the Program Documentation and the
Agreement in accordance with the practices,
professional standards of care, and degree of
attention used in a well-managed operation,
and no less than that which the Servicer
exercises for itself under similar circumstances; and (ii) used qualified individuals
with suitable training, education, experience
and skills to perform the Services. Servicer
acknowledges that participation in the Programs required changes to, or the augmentation of, its systems, staffing and procedures. Servicer took all reasonable actions
necessary to ensure that it had the capacity
to implement the Programs in which it is
participating in accordance with the
Agreement.

5.

Servicer acknowledges that the provision of
false or misleading information to Fannie
Mae or Freddie Mac in connection with the
Programs or pursuant to the Agreement

App.68a
may constitute a violation of: (a) Federal
criminal law involving fraud, conflict of
interest, bribery, or gratuity violations found
in Title 18 of the United States Code; or (b)
the civil False Claims Act (31 U.S.C. §§ 37293733). Servicer has disclosed to Fannie Mae
and Freddie Mac any credible evidence known
to Servicer, in connection with the Services,
that a management official, employee, or
contractor of Servicer has committed, or
may have committed, a violation of the
referenced statutes.
24. The mere existence of RCV1 and the fact that
all of the mortgages contained therein were not serviced
make all claims by Chase that it complied with the
SPA of the MHA program false.
25. Borrowers whose 1st lien mortgage loans were
hidden in RCV1 were denied the opportunity to apply
for the various 1st lien modification options under
the HAMP.
26. Since the failure to service mortgages in
RCV1 represents a long standing and known practice,
dating back to the year 2000, Chase cannot claim that
its violations of the HAMP were “inadvertent.”
27. As noted in the MHA Handbook, the
“evaluation of materiality may or may not be
quantifiable in monetary terms and should include,
but is not limited to, consideration of the nature and
frequency of noncompliance as well as qualitative
considerations, including the impact on MHA program
goals and objectives.” MHA Handbook v.4.0 at 45
(emphasis added).

App.69a
28. The principal focus of the HAMP were mortgages in which “[d]efault on the payment of such
mortgage has occurred, is imminent, or is reasonably
foreseeable,” MHA Handbook v. 4.0 at 21. He emphasis
on mortgages in default describes all of the mortgages
in RCV1. Chase internal documents describe the RCV1
population as varying between 359,000 and 420,000.
Therefore, since the systematic violation of the HAMP
requirements related to the very mortgages that the
HAMP was designed to protect had a material “impact
on MHA program goals and objectives,” any false certifications of compliance related to those mortgages
were necessarily material to the government’s decisions
to make payments to Chase under the HAMP.
B. Damages to the Government Related to the
HAMP
29. The Amended and Restated Commitment to
Purchase Financial Instrument and Servicer Participation Agreement between the United States Government and Chase provided for the implementation of
loan modification and foreclosure prevention services
(“HAMP Services”) and the payment of incentives to
Chase to make those loan modifications.
30. The value of Chase’s SPA was limited to
$4,532,750,000 (“Program Participation Cap”).
31. The value of EMC Mortgage Corporation’s
(“EMC”) SPA (Chase’s successor in interest) was limited
to $1,237,510,000.
32. Through February 2018, the total incentive
payments paid by the government under Chase’s SPA
was $ 2,935,614,067.69. Of this amount $844,994,
007.79 went to borrowers; $1,540,570,199.39 went to

App.70a
Lenders/Investors; and $550,049,860.51 when to Chase.
Similarly, through February 2018, the total incentive
payments paid by the government under the EMC
SPA was $35,441,779.30. Of this amount $7,569,459
.20 went to borrowers; $11,592,937.05 went to Lenders
/Investors; and $16,279,383.05 when to EMC. U.S.
Treasury, Monthly Report to Congress, February 2018
at 152-53. https://www.treasury.gov/initiatives/financial
-stability/reports/Documents/2018.02%20February%
20Monthly%20Report%20to%20Congress%20vfinal.
pdf.3
33. Chase was required to certify annually that
it was in compliance with the SPA and the MHA
program and must strictly adhere to the guidelines
and procedures issued by the Treasury with respect
to the programs outlined in the Service Schedules
(“Program Guidelines”). The Program Guidelines pursuant to the Treasury Directives are cataloged in the
MHA Handbook. None of the loans that Chase and
EMC identified and submitted for payment against
their respective Participation Caps were eligible for
the incentive payment, because neither Chase nor EMC
complied with the SPA and Handbook guidelines.
Specifically, all loan modification programs must be
made available to all borrowers, who must then apply
to determine eligibility. Hundreds of thousands of
3 Approximately 12 percent of the payments under Chase’s SPA
were paid through January 2012. The remainder was paid after
that date. All of the EMC SPA payments were made by the end
of January 2012. https://www.treasury.gov/initiatives/financialstability/reports/Documents/February%202012%20105(a)%
20(2).pdf. Thus, if Chase’s liability was limited to violations of
the HAMP occurring after February 8, 2012, the damages to the
government would still be over 80 percent of the total payments
to Chase.

App.71a
borrowers’ mortgage loan accounts in the RCV1 system
of records were not offered and thereby unable to be
considered for all eligible loss mitigation options
(even though they likely could have qualified). Due to
the omission of the RCV1 population for any loss
mitigation options, none of the modifications that
Chase provided qualified for HAMP incentives. Thus,
Chase does not qualify for any of the HAMP incentives
for which it applied and received funds.
34. Relator found hundreds of loans that were
lien released, continued to be subject to collection
and then later had “vacations” placed on record in an
attempt to reinstall the released liens. These vacations
professed to be reversals of HAMP modifications but
were in fact loans owned by Relator and that were
not the subject of HAMP modifications. The lien
releases were filed by Chase’s third-party contractor
Nationwide Title Clearing (“NTC”) with instructions
that NTC not send the recorded documents to the
borrowers.
35. Therefore, Chase’s certifications of compliance
and its creation of records to support those certifications
represent both the knowing presentation of false or
fraudulent claims for a payment and the knowing use
of false records material to false or fraudulent claims.
36. Under the FCA, a person is liable for penalties
and damages who:
(A) knowingly presents, or causes to be
presented, a false or fraudulent claim for
payment or approval;
31 U.S.C. § 3729(a)(1)(A)
and

App.72a
(B) knowingly makes, uses, or causes to be
made or used, a false record or statement
material to a false or fraudulent claim.
31 U.S.C. § 3729(a)(1)(G).
37. Each of Chase’s false certifications is actionable under either 31 U.S.C. § 3729(a)(1)(A) and (B),
because they represent a false or fraudulent claim for
payment or approval of a false record or statement
material to a false or fraudulent claim.
38. Under HAMP, the Federal Government
entered into the Commitment with Chase, with the
understanding that Chase would meet its obligations
under the SPA and related Treasury directives. The
Federal Government is now harmed because it is not
receiving the benefit of the bargain for which it
negotiated with Chase due to the false claims for
payment that have been made by the Defendant.
II. Jurisdiction and Venue
39. The Court has jurisdiction over the subject
matter of this action pursuant to 28 U.S.C. § 1331
and 31 U.S.C. § 3730(a).
40. Venue is proper in this District pursuant to
31 U.S.C. § 3732(a) because
Defendant transacts business in the District of
Columbia.
III. Parties
A. Relator
41. Relator, Laurence Schneider, submits this
Complaint on behalf of the Federal Government and

App.73a
himself pursuant to 31 U.S.C. §§ 3729-3733. Relator
is an experienced real estate and mortgage investor
who works and resides in Boca Raton, Florida. Because
of his ownership of thousands of mortgage loans and
hundreds of rental housing units, Relator has acquired
extensive knowledge of banking practices, laws and
regulations. Relator has direct and personal knowledge
of the fraudulent scheme described herein. Relator,
as President of S&A Capital Partners, Inc., 1st Fidelity
Loan Servicing, LLC, and Mortgage Resolution Servicing, LLC, has purchased mortgage notes from Chase
since 2005. Relator has over 20 years of experience in
mortgage loan origination and servicing. In that time,
he has built relationships and purchased mortgage
loans from over 40 different loss mitigation representatives in three different loan servicing centers
operated by Chase in Wisconsin, Arizona and Texas.
In the process, he has learned intimate details of
Chase’s loss mitigation activities and gained an understanding of Chase’s overall loan servicing policies and
procedures.
42. S&A Capital Partners, Inc. (“S&A”) is a Florida corporation located at 6810 N. State Road 7,
Coconut Creek, Florida. Relator is the President and
shareholder of S&A. From 2005 to 2010, S&A purchased
First Lien and Second Lien mortgages owned by
Defendant Chase.
43. 1st Fidelity Loan Servicing, LLC (“1st Fidelity”) is a Florida Limited Liability Company located
at 6810 N. State Road 7, Coconut Creek, Florida. Relator is the President and managing member of 1st
Fidelity. From 2007 to 2010, 1st Fidelity purchased
First Lien and Second Lien mortgages owned by
Defendant Chase.

App.74a
44. Mortgage Resolution Servicing, LLC (“Mortgage Resolution”) is a Florida Limited Liability Company located 6810 N. State Rd. 7, Coconut Creek,
Florida. Relator is the President and managing member
of Mortgage Resolution. Mortgage Resolution purchased
a pool of what were purported and represented to be
3,529 First Lien mortgages from Defendant Chase on
February 25, 2009.
45. By letter dated March 28, 2013, the Relator
voluntarily provided information on which this action
is based prior to the filing of his original Complaint
on May 6, 2013. The Relator served his statement of
material information regarding this action on the
Government together with the Complaint in accordance
with 31 U.S.C. § 3730(b)(2).
B. Defendants
46. Defendants JP Morgan Chase Bank, National
Association is a subsidiary of Defendant JP Morgan
Chase & Co. Chase’s headquarters is located at 270
Park Avenue, New York, New York. Defendant JP
Morgan Chase & Co. is a Delaware corporation. On
September 25, 2008, Washington Mutual Bank., F.S.B.,
a federal savings bank headquartered in Henderson,
Nevada, failed, and J.P. Morgan Chase Bank, N.A.,
purchased substantially all of the assets and assumed
all deposit and substantially all other liabilities of
Washington Mutual Bank., F.S.B., pursuant to a
Purchase and Assumption Agreement with the Federal
Deposit Insurance Corporation (“FDIC”) and the FDIC
as Receiver for Washington Mutual Bank, F.S.B. On
March 16, 2008, Chase acquired EMC Mortgage
Corporation as part of its acquisition of Bear Stearns
Companies, Inc. The business of Defendant J.P. Morgan

App.75a
and its subsidiaries and affiliates includes the
origination and servicing of mortgage loans.
IV. Background
A. The HAMP Program
47. To implement and help facilitate the uniform
servicing guidelines and provide various government
sponsored loan modification programs, Treasury
incentivized participating servicers under a Commitment to Purchase Financial Instrument and Servicer
Participation Agreement (“SPA”), by and between
Federal National Mortgage Association, a federally
chartered corporation, as financial agent of the United
States (“Fannie Mae”).
48. The Treasury established a variety of loan
modification programs under the Act to further stabilize
the housing market by facilitating first and second
lien mortgage loan modifications and extinguishments,
providing home price decline protection incentives,
encouraging foreclosure alternatives, such as short
sales and deeds in lieu of foreclosure, and making
other foreclosure prevention services available to the
marketplace (collectively, together with the HAMP
Services, the “Services”). These programs included:


The Home Price Decline Protection Incentives
(HPDP) initiative.



The Principal Reduction Alternative (PRA).



The Home Affordable Unemployment Program
(UP).



The Home Affordable Foreclosure Alternatives
Program (HAFA).

App.76a


The Second Lien Modification Program (2MP).



The FHA-HAMP Program.



The Treasury/FHA Second-Lien Program
(FHA2LP).



Housing Finance Agency Hardest Hit Fund
(HHF).



The SPA provides various types of Servicer
Incentive Payments depending on the various
governments loan modification programs. These
incentives include:



Completed one-time Modification Incentives.



Pay-for-Success Incentives.



Full Extinguishment Incentives.



Borrower Incentive Compensation.

49. To participate in HAMP a Servicer was required to register using the HAMP registration form
and HAMP Reporting Tool.
50. Fannie Mae was designated by the Treasury
as the financial agent of the United States in connection
with the implementation of the Programs. Its responsibilities were general administration and record
keeping for the Programs, standardization of certain
mortgage modification and foreclosure prevention
practices and procedures as they relate to the Programs,
consistent with the Act and in accordance with the
directives of, and guidance provided by, the Treasury.
51. In addition to the Commitment, Chase simultaneously executed and delivered to Fannie Mae
numerous schedules describing the various loan
modification initiatives (“Services”) to be performed

App.77a
by the Servicer pursuant to the Agreement (“Service
Schedule”), which are numbered sequentially as Exhibit
A of the Commitment.
52. On March 24, 2010, Henry John Beans, SVP
of Default Servicing for Chase, registered and executed
a SPA with the Program Administrator. The SPA
governs servicer participation in MHA.
53. On March 25, 2010, Michael R. Zarro, Jr.,
SVP of Default Servicing for EMC Mortgage Servicing,
registered and executed a SPA with the Program
Administrator.
1. Servicing Guidelines
54. Servicers participation in the MHA program
included strictly adhering to the guidelines and
procedures issued by the Treasury with respect to the
Programs outlined in the Service Schedules (“Program
Guidelines”); and any supplemental documentation,
instructions, directives, or other communications, including, but not limited to, business continuity requirements, compliance requirements, performance requirements and related remedies and duties of the Participating Servicers in connection with the Programs
outlined in the Service Schedules (“Supplemental
Directives” and, together with the Program Guidelines,
the “Program Documentation”).
55. Chase was required to perform the Services
described in the Financial Instrument (“Financial
Instrument”); referenced as Exhibit B of Commitment.
Servicer represented, warranted, and acknowledged
its agreement to fulfill its duties and obligations,
with respect to its participation in the Programs and

App.78a
under the Agreement, and such representations were
set forth in the Financial Instrument.
56. Fannie Mae, in its capacity as the financial
agent of the United States, remitted payments
described in the Program Documentation to Chase for
its successful compliance with the Treasury Directives
and subsequent successful modifications of distressed
mortgages.
57. In April 2012, the Department of the Treasury
issued guidelines regarding which Consumer Redress
Activities may be considered “qualified loss mitigation
plan[s]” for purposes of Section 201 of the Helping
Families Save Their Homes Act of 2009 (“HFSTHA”).
As part of HSFTHA, Congress amended the Truth in
Lending Act such that each residential loan modification, deed-in-lieu of foreclosure transaction, short
sale, refinancing, or principal reduction transaction
identified in the Settlements, including those specific
to individual servicer settlements, is a “qualified loss
mitigation plan.”
58. In addition to entering into the qualified loss
mitigation plans, mortgage servicers were required to
satisfy other requirements of HFSTHA, including the
following:


The mortgage must have been originated before
May 20, 2009;



Default on the payment of such mortgage has
occurred, is imminent, or is reasonably foreseeable;



The mortgagor occupies the property securing
the mortgage as his or her principal residence;
and

App.79a


The servicer reasonably determines, consistent
with these guidelines, that the application of
the qualified loss mitigation plan will likely
provide an anticipated recovery on the outstanding principal mortgage debt that will exceed
the anticipated recovery through foreclosure.

59. On June 26, 2014, the Government extended
the application deadline for MHA programs to December 31, 2016.
2. Implementation of Servicing Guidelines
60. Servicers were required to maintain complete
and accurate records of, and supporting documentation
for, all Services provided in connection with the
Programs including, but not limited to, data relating
to borrower payments (e.g., principal, interest, taxes,
homeowner’s insurance), loan modification and extinguishment agreements. The documentation was
relied upon by Fannie Mae when calculating the
Purchase Price to be paid by the Treasury for each
certified modification.
61. The Servicers certification as to its continuing
compliance with, and the truth and accuracy of, the
representations and warranties set forth in the
Financial Instrument were provided annually in the
form of a certification (the “Certifications”), beginning
on June 1, 2010 and again on June 1 of each year
thereafter during the term of the SPA.
62. The requirements of the SPA applied to all
mortgage loans Chase serviced, whether it serviced
such mortgage loans for its own account or for the
account of another party, including any holders of
mortgage-backed securities.

App.80a
63. Servicers were required to report periodic
loan-level data for all transactions related to HAMP
using the HAMP Reporting Tool. Servicers upload data
tapes of borrowers loan level data including the type
of modification performed.
64. The HAMP Compensation Matrix provides
details on the incentive amount, frequency, timing
and conditions required for incentive payments in
the form of the official monthly report (“OMR”).
3. Compliance with Servicing Guidelines
65. The Federal Home Loan Mortgage Corporation (“Freddie Mac”) was designated by the Treasury
as a financial agent of the United States in its capacity
as compliance agent of the Programs and oversight of
Servicers’ performance of the Services and implementation of the Programs.
66. As Compliance Agent for the elements of
HAMP that are addressed in the Handbook, Freddie
Mac created an independent division, Making Home
Affordable-Compliance (MHA-C) for this purpose. MHAC conducts independent compliance assessments and
servicer reviews to evaluate servicer compliance with
the requirements of MHA. During the course of
conducting compliance assessments, it requests such
documentation, policies, procedures, loan files, and
other materials necessary to conduct the review.
67. Servicers were required to maintain appropriate documentary evidence of their HAMP-related
activities, and to provide that documentary evidence
upon request to MHA-C. Servicers must maintain required documentation in well-documented servicer
system notes or in loan files for all HAMP activities,

App.81a
for a period of seven years from the date of the document collection. Required general documentation applicable to all MHA Programs.
68. The Handbook set forth the requirements for
documentation required. It stated that:


Servicers are required to maintain appropriate
documentary evidence of their MHA-related
activities, and to provide that documentary
evidence upon request to MHA-C. Servicers
must maintain required documentation in welldocumented servicer system notes or in loan files
for all MHA activities, for a period of seven
years from the date of the document collection.
Required general documentation applicable to
all MHA Programs includes but is not limited to:
[* * *]



The servicer’s process for pre-screening nonperforming loans against the basic program
requirements prior to referring any loan to
foreclosure or conducting scheduled foreclosure
sales.



For charged off mortgage loans not considered
for HAMP, evidence that the servicer has
released the borrower from liability for the debt
and provided a copy of the release to the
borrower.



For loans not considered for HAMP or UP due to
property condition, evidence that the property
securing the mortgage loan is in such poor
physical condition that it is uninhabitable or
condemned.
[* * *]

App.82a


Information relating to the borrower’s payment
history.
[* * *]



All policies and procedures related to clearing
Dodd-Frank Certification, Borrower Identity and
Owner-Occupancy Alerts and for addressing any
potential irregularities that may be identified
independently by the servicer, including the
process the servicer will take to notify the
borrower, methods for borrower communication,
and the process to verify the accuracy of information disputed by a borrower.

69. In short, servicers were required to establish
and maintain internal controls that provide reasonable
assurance that they are in compliance with MHA
Program requirements. Further, servicers are required
to certify that they have developed and implemented
an internal controls program to monitor compliance
with applicable consumer protection and fair lending
laws, among other things, as described in the SPA.
70. Servicers review the effectiveness of the
internal controls program on a quarterly basis throughout the period covered by the related Certification.
Servicers are also required to develop and execute a
quality assurance program to assess documented
evidence of loan evaluation, loan modification and
accounting processes and to confirm adherence to
MHA Program requirements. The quality assurance
program includes of internal control processes, and
should be assessed to ensure that it: (i) includes loans
from all potentially relevant categories (ii) is independent from the business lines; (iii) applies appropriate
sampling methodology; (iv) reaches appropriate conclu-

App.83a
sions; (v) distributes reports to appropriate members of
management.
71. Each servicer must develop, document and
execute an effective quality assurance (“QA”) program
that includes independent reviews of each MHA
program in which the servicer is participating pursuant
to an executed SPA to ensure that the servicer’s
implementation and execution of such program(s)
conforms to the requirements of the SPA and this
Handbook.
72. The QA function must establish an internal
QA function that:


Is independent of the servicer’s mortgage related
divisions (a/k/a an “Internal Review Group”);



Is comprised of personnel skilled at evaluating
and validating the processes, decisions and
documentation utilized throughout the implementation of each program;



Has the appropriate authority, privileges, and
knowledge to effectively conduct internal QA
reviews;



Coordinates activities and validates results with
other risk and control units within the servicer’s
organization including, but not limited to,
internal audit, compliance, and operational risk;



Evaluates whether management, at varying
levels, is receiving appropriate information on
a timely basis which would allow for the
identification of process failures, backlogs, or
unexpected results or impacts; and

App.84a


Evaluates the completeness, accuracy and timeliness of the servicer’s response to MHA-C
servicer-level review reports.

73. The established QA function evaluated all
components of the servicer’s participation in applicable
MHA programs, including, but not limited to:


Availability and responsiveness of servicing personnel to borrower inquiries, questions, and
complaints, including Escalated Cases;



Solicitation and outreach to potentially eligible
borrowers;



Determination of borrower eligibility for any
MHA program;



Pre-screening
practices
exclusion
from
solicitation due to known eligibility failures or
automated programs used to target and identify
potentially eligible or qualified individuals for
MHA programs;



Tracking and retention of documentation submitted by borrowers;



Compliance with the requirements concerning
Borrower Notices;



Reporting of Government Monitoring Data;



Adherence to prohibitions on referral of loans
to foreclosure and conducting of scheduled foreclosure;



Underwriting, including assessment of imminent default and hardship circumstances, calculation of borrower income, debts and escrow
analysis; valuation of property; application of

App.85a
each applicable standard modification waterfall
and, if required, the applicable alternative
modification waterfall(s);


Documentation of a request for and approval of
a modification (or other loss mitigation option)
by the mortgage insurer, investor and/or other
interested party in a loss position;



Timely consideration of alternative loss
mitigation options, as well as other foreclosure
alternatives when a permanent modification is
not appropriate;



Reconciliation and distribution of incentives
payments;



Maintenance of documentation appropriate to
support MHA requirements and decisions; and



Reporting of MHA data timely and accurately
for recording in the HAMP Reporting Tool,
including data related to incentive payments,
and the process used to map program data from
the servicer’s loss mitigation system to the
HAMP Reporting Tool.

74. QA reviews must occur at least quarterly
and the report must be distributed to the appropriate
executives or board-level committees, including senior
management independent of the area under review.
(a/k/a Monitor Reports).
75. Results of QA activities required support by
adequate work papers and other documentation that
is well organized and sufficiently detailed to allow a
knowledgeable third party who did not participate in
the review to assess the documentation and understand

App.86a
how the conclusions reached in the associated report
are substantiated (a/k/a Professional Firms).
4. Relationship Manager A/K/A SPOC
76. Servicers with a Program Participation Cap
of $75,000,000 or more as of May 18, 2011, were required to establish and implement a process through
which borrowers who potentially are eligible for HAMP
are assigned a relationship manager to serve as the
borrower’s single point of contact.
77. Each servicer was required to have clear and
comprehensive internal written policies for identification and solicitation of borrowers who are potentially
eligible based on information in the servicer’s possession.
78. The same relationship manager was responsible for managing the borrower relationship
throughout the entire delinquency or imminent default
resolution process, including any home retention and
non-foreclosure liquidation options, and, if the loan
was subsequently referred to foreclosure, had to be
available to respond to borrower inquiries regarding
the status of the foreclosure.
79. Each such servicer must assign a relationship
manager to a delinquent borrower or a borrower who
requests consideration under a designation of imminent
default immediately upon the successful establishment
of Right Party Contact with the borrower and (i) the
determination by the servicer of a borrower’s potential
eligibility for HAMP based on information disclosed
during the initial telephone interview or other oral
communication, or (ii) upon receipt from the borrower
of any completed or partially completed Initial Package

App.87a
(as defined in Section 4 of Chapter II of the Handbook)
signed by the borrower.
80. The relationship manager’s responsibilities
included, without limitation:


Communicating the options available to the
borrower for resolving the delinquency or
imminent default, the actions the borrower must
take to be considered for those options, the
timing requirements for completion of actions
by the borrower and the servicer, and the status
of the servicer’s evaluation of the borrower for
those options;



Coordinating maintenance and tracking of documents provided by the borrower and that the
borrower is notified promptly of the need for
additional information;



Being knowledgeable about the borrower’s
situation and current status in the entire
delinquency or imminent default resolution
process, including any home retention or nonforeclosure liquidation options; and



Coordinating with other personnel responsible
for ensuring that a borrower who was not
eligible for MHA programs be considered for
other available proprietary loss mitigation
options.

81. The relationship manager had primary responsibility for coordinating the servicer’s actions to
resolve the borrower’s delinquency or imminent default
until all available home retention and non-foreclosure
liquidation options had been exhausted and for
communicating those actions to the borrower.

App.88a
82. A servicer evaluated a borrowers loan modification options after its relationship manager receives
the borrowers Initial Package.
The Initial Package included:


Request for Modification Assistance (“RMA”)
Form;



Either (i) IRS Form 4506-T or 4506T-EZ or (ii)
a signed copy of the borrower’s tax return for
the most recent tax year;



Evidence of income; and



Dodd-Frank Certification

83. Servicers could require use of the RMA by
all borrowers requesting consideration for HAMP or
may use other proprietary financial information forms
that are substantially similar in content to the RMA.
84. Included in the RMA was a Hardship Affidavit. Every borrower seeking a modification, regardless
of delinquency status was required to sign a Hardship
Affidavit that attests that the borrower is unable to
continue making full mortgage payments and describes
the type of hardship.
85. Servicers were required to use HAMP as the
first loss mitigation option for each borrower.
86. Each servicer was required to have written
standards for determining imminent default that are
consistent with applicable contractual agreements
and accounting standards and must apply the standards equally to all borrowers. The mortgage file
and/or servicing system had to contain evidence of
this determination.

App.89a
87. A servicer had to document in its servicing
system and/or mortgage file the basis for its determination that a payment default is imminent and retain
all documentation used to reach this conclusion.
88. Servicers were required to include in their
internal quality assurance plan appropriate assessments of relationship manager activities. These assessments included, but were not limited to, coverage of
the following areas:
1.

Timing of communications to borrowers
about relationship manager assignment and
changes;

2.

Relationship manager access to information,
including the borrower’s current status in the
delinquency or imminent default resolution
process, and appropriate training to understand the information;

3.

Relationship manager coordination of document and information flow to and from
borrowers;

4.

Relationship manager’s access to individuals
with the ability to stop foreclosure proceedings;

5.

Organizational structure and staffing levels
such that relationship managers can properly
carry out responsibilities; and

6.

Relationship manager input on the certification prior to foreclosure sale.

89. Servicers were required to maintain evidence
of the control testing activities conducted in order to
assess compliance and submit the annual certification.

App.90a
90. In testimony delivered on May 15, 2012, before
the California Legislative Conference Committee Hearing on Foreclosure Crises—SB 900 and AB 278,
Stephanie Mudick, Executive Vice President, Head of
Consumer and Regulatory Affairs, Mortgage Banking
J.P. Morgan Chase acknowledged the very strict rules
for modifying loans under the HAMP. She stated:
So first I might mention to do a modification
under the rules of HAMP and they’re very,
very clear and specific rules about what you
need when you do a modification, we need to
have documentation from a borrower. We
need to have certain forms filled in. We
need to have income documentation so that
we can do a calculation as to what an
affordable payment would be and so if we
don’t have the ability to engage and have
conversations with the borrower, we literally
are not able to be in a position where we can
do a mod. So it’s kinda its basic and simple
as that.
http://calchannel.granicus.com/MediaPlayer.php?
view id=7&clip id=375 [at 02:06:14]
91. The SPA required a servicer to submit an
annual certification (Annual Certification) as to its
continued compliance with, and the truth and accuracy
of, the representations and warranties set forth in
the SPA on June 1, 2010. On June 1 of each year
thereafter during the term of the SPA, servicers are
required to submit Subsequent Certification. The Form
of Certification is attached to the original SPA as an
exhibit.

App.91a
92. If a servicer became aware of any information
that would cause them to be unable to certify to the
truth and accuracy of the representations and
warranties included in the applicable, the servicer
was required to notify MHA-C promptly and amend its
Certification to include that information.
93. This included any representations and
warranties, or covenants that ceased to be true and
correct or any deficiencies in the design or operating
effectiveness of the internal controls, including the
servicer’s quality assurance program.
5. Incentive Payments
94. Under the HAMP Chase received incentive
compensation for each eligible loan modification.
This compensation varied based on the delinquency
period of the loan and the continued success of the
loan modification effort. The specific conditions for
these incentive payments are set out in Chapter 1,
Section 13 of the HAMP Handbook.
95. Under the HAMP servicer Compensation
Matrix, the servicer receives a servicer one-time payment from the Government for each completed
permanent HAMP modification of a first lien. The
amount of the payment depends on a number of factors
and has varied over time from $400 to $2000.
96. In addition to the initial modification completion incentive payment, servicers are paid “Pay for
Success” incentives of up to $83.33 per month, which
are accrued monthly and paid annually on the
anniversary date of the permanent HAMP loan
modification for a period of thirty six (36) months for
modified loans that remain in good standing.

App.92a
97. Servicers may also receive compensation for
modifying second liens. The amount of the payments
varies depending on whether the modification is a
full or partial extinguishment and the combined loanto-value (CLTV) ratio.
B. The U.S. Bankruptcy Trustee Program and the
Office of the Comptroller of the Currency
Identified Servicing Practices by Chase Which
Violated the HAMP Loan Servicing and
Modification Requirements
98. On March 3, 2015 the Department of Justice
announced that the U.S. Trustee Program (“USTP”) had
entered into a $50 million settlement agreement with
JP Morgan Chase. As part of the settlement, Chase
acknowledged that it filed over 50,000 false payment
change notices (“PCN”) in bankruptcy courts around
the country. The admissions contained in this settlement agreement demonstrate that Chase violated many
of the requirements of NMSA and the HAMP and that
any certifications that Chase was in compliance with
those requirements represented material false claims.
99. On June 16, 2015, the Office of the Comptroller of the Currency (“OCC”) filed a document in bankruptcy court titled “CONSENT ORDER AMENDING
THE 2011 CONSENT ORDER and 2013 AMENDMENT TO THE 2011 CONSENT ORDER” regarding
Chase. http://www.occ.gov/static/enforcement-actions/
ea2015-064.pdf. The original consent order was issued
after the OCC “identified certain deficiencies and
unsafe or unsound practices in residential mortgage
servicing and in the Bank’s initiation and handling of
foreclosure proceedings.” http://www.occ.gov/newsissuances/news-releases/2011/nr-occ-2011-47e.pdf. As

App.93a
part of the original OCC consent order, Chase agreed to
take specific actions to correct its servicing deficiencies.
The OCC’s amended consent order details the many
ways in which Chase violated these commitments.
100. Specifically, the 2015 amended consent order
stated that Chase violated the following commitments:
(a) the Bank shall implement its Revised
Action Plan and ensure effective coordination
of communications with borrowers, both
oral and written, related to Loss Mitigation
or loan modification and foreclosure activities, including, at a minimum:
(i)

appropriate deadlines for responses to
borrower communications and requests for
consideration of Loss Mitigation, including
deadlines for decision-making on Loss Mitigation Activities, with the metrics established
not being less responsive than the timelines
in the Home Affordable Modification Program
(commonly referred to as “HAMP”);

(ii) a requirement that written communications
with the borrower identify a single point of
contact along with one or more direct means
of communication with the contact; and
(iii) procedures and controls to ensure that a
final decision regarding a borrower’s loan
modification request (whether on a trial or
permanent basis) is made and communicated
to the borrower in writing, including the
reason(s) why the borrower did not qualify for
the trial or permanent modification (including
the net present value calculations utilized by
the Bank, if applicable) by the single point

App.94a
of contact within a reasonable period of time
before any foreclosure sale occurs.
OCC Amended Consent Order at 8-9.
101. These requirements are similar, if not identical, to requirements in the HAMP and ¶¶ 54-89.
Thus, the OCC consent order represents a finding that
Chase violated those requirements and that those
violations were material. Thus, any certifications by
Chase that it was in compliance with those requirements represented material false claims.
V. Chase Falsely Claimed Compliance
with Servicing Requirements of Hamp
A. The Secondary System of Loans: Recovery One
102. As indicated, Chase maintains a secondary set
of loans stored outside of its primary SOR. The
secondary set of loans is known as Recovery One
(“RCV1”) or RCV1-SOR. RCV1 is essentially a collection
of various federally related mortgage loans that have
been charged off by Chase and whose documentation
has been corrupted, ignored or allowed to fall into
disarray. It includes various levels of defaulted and
charged off loans in both first and second lien positions.
It also includes mortgages that are subject to bankruptcies and post-foreclosure deficiencies.
103. In short, the RCV1-SOR is a loose collection
of loans that Chase has relegated to the No Man’s
Land of the bank where these mortgage loans and
the associated borrowers are ignored to the point where
compliance with any regulatory body is impossible.
104. The RCV1 population of loans is comprised
of loans that Chase has removed from its primary SOR

App.95a
upon a determination that the loans were valueless
based on General Acceptable Accounting Principles
(GAAP) and other internal methods of bookkeeping.
105. Upon the determination that a loan is valueless, Chase removes the loan from its balance sheet
and adjusts its accounting entry, thus charging off
the loan as a bad debt expense.
106. This “charge off,” as it is commonly known,
is generally defined as a creditor having little
expectation of collection of the debt. However, the
loan’s “charge off” status does not relieve a servicer of
its servicing responsibilities for its “federally related
mortgage loans.”
107. As set out in 12 U.S.C. § 2602(1):
(1) [T]he term “federally related mortgage
loan” includes any loan (other than temporary
financing such as a construction loan) which—
(A) is secured by a first or subordinate lien on
residential real property (including individual units of condominiums and cooperatives)
designed principally for the occupancy of
from one to four families, including any such
secured loan, the proceeds of which are used
to prepay or pay off an existing loan secured
by the same property; and
(B)
(i) is made in whole or in part by any lender
the deposits or accounts of which are insured
by any agency of the Federal Government,
or is made in whole or in part by any lender

App.96a
which is regulated by any agency of the
Federal Government. . . . 4
108. There is no exception from the servicing
requirements in 12 U.S.C. § 2602(1) for loans that
have been charged off by the servicer.
109. An exemption for charged-off loans was
created in the HAMP under the following conditions:
Servicers are not required to consider for
HAMP a mortgage loan that has been charged
off if the servicer has released the borrower
from liability for the debt and provided a
copy of such release to the borrower. The
servicer must retain in the mortgage file
and/or servicing system all evidence related
to the charge off including the release of
liability.
MHA Handbook v.4.0 at 60.
110. Thus, in order to be exempted from the
requirements of the HAMP for charged-off loans, the
servicer had to not only release to lien, but in addition,
forgive the debt and notify the borrower.
111. Chase’s policies and procedures regarding
loan charge-offs included both first and second lien
mortgages.
112. These charge-offs included proprietary bank
owned mortgage loans and loans which are serviced
on behalf of others, including Residential Mortgage
Backed Securities (RMBS) and loans serviced on behalf
of Government Sponsored Entities (GSE) such as
4 The current version of 12 U.S.C. § 2602(1) became effective on
January 2, 1976.

App.97a
FNMA, Freddie Mac and the Federal Housing Authority (FHA).
113. The motivating factors for moving chargedoff mortgages from the primary SOR to the RCV1-SOR
includes the high cost—in terms of financial, reputational and human resources—of properly servicing
these federally related mortgages that require a single
point of contact, timely and accurate information,
adequate and knowledgeable staffing, communications with law firms, code enforcement, compliance
with all Federal and State laws and other associated
activities.
114. Other motivating factors included servicing
contracts between the Servicer and third party investors
that did not provide for reimbursement of third party
expenses such as those for property preservation,
insurance, payment of taxes, costs of foreclosure and
disposition fees.
115. Loans in RCV1 are not serviced as required
by RESPA, Treasury Directives, or the HAMP.
116. These loans remain subject to collection
actions by collection agencies and the liabilities were
not released.
117. For many loans in the RCV1 population,
Chase did release lien to reduce the liability to
Chase. However, the loans remained in collection and
the borrowers were not informed of the release and
Chase continued active collection activities on these
loans.
118. Continuing these collection activities in RCV1
was an important revenue source for Chase. According to a 2015 internal Audit Group Report, “[t]he busi-

App.98a
ness recovered approximately $213 million in deficiency
balances during 2014, with the majority of the recovery
amount tied to charged off home equity liens.”
118. The failure to service the loans in the RCV1
population is a violation of the applicable Servicing
Guidelines of the MHA.
120. The existence of RCV1 and the fact that its
universe of loans was not serviced in accordance with
existing law and regulations made it impossible for
Chase to be in compliance with the Treasury Directives
of the HAMP. Thus, any assertion by Chase that Chase
met those directives represents a material false claim.
121. The practice of porting loans out of the
primary SOR and into the RCV1-SOR began as early as
2000 when JP Morgan & Company merged with Chase
Manhattan Corporation.
122. Thus, the violations of federal banking law
and regulations regarding the charged-off mortgages
in RCV1 began before the introduction of the HAMP
in 2009 and continue to the present time.
123. Chase’s policy of porting charged off home
loans into the RCV1-SOR damaged its ability to
properly document the loans due to the complete lack
of any servicing, and thus a complete corruption of
the accuracy and integrity of the records for these
mortgage loans.
124. The HAMP servicing guidelines required that
Servicer’s systems to record account information be
periodically independently verified for accuracy and
completeness by an independent reviewer.
125. Internal documents of Chase demonstrate that
the RCV1 contains mortgage loans whose borrowers

App.99a
have had no contact with Chase since as far back as
2000.
126. The entire population of loans sold to the
Relator’s entity Mortgage Resolution came directly
from the RCV1-SOR, a small portion of the hundreds
of thousands of loans contained within it.
127. After the transfer to Mortgage Resolution of
3,529 loans from the RCV1-SOR, Chase failed to
send transfer letters to the borrowers as required by
RESPA. Chase did not possess the records necessary
to determine whose loans had been transferred. Chase
did not provide any complete or accurate servicing
information for these loans. As recently as March
2014, over 5 years after the completion of the sale,
Chase admitted in writing that it was unable to
determine which loans it had included in the sale to
Mortgage Resolution.
128. Since the loans contained in the RCV1
population are not maintained or serviced according
to any Servicing Standards, they fail to meet any of
the requirements set forth in the MHA Commitment
and its accompanying MHA Handbook, the past standards under prior laws and regulations or the standards set forth in the Dodd-Frank legislation.
129. Due to Chase’s total disregard of the MHA
Handbook and servicing requirements under RESPA,
none of the borrowers in the RCV1-SOR were
considered for eligibility by Chase for any proprietary
or government loan modification programs offered to
borrowers in the primary system of records. In contrast,
none of the borrowers in the primary SOR’s were
considered for eligibility for Chase’s 2nd Lien Extinguishment Program.

App.100a
130. Pursuant to the SPA, all loan modification
programs must be made available to all eligible
borrowers. Since Chase did not make its proprietary
or government loan modification programs available
to all eligible borrowers, none of the incentive payments
paid in under the HAMP are eligible for such payments.
131. During October 2013, the Monitor of the
Consent Judgment became aware that Chase had not
included the loans in RCV1 in the population of loans
for metrics testing of the servicing requirements of
Exhibit A of the Consent Judgment. When Chase was
told that it would have to include RCV1 loans in metric
testing population, Chase sought a compromise. The
Monitor then permitted Chase to avoid placing those
loans in the metric testing population if it would
certify that all the liens on property securing the
loans in RCV1 were released.
132. The Monitor later testified that he did not
know that the loans in RCV1 were not being serviced.
Thus, the Monitor reached this agreement without the
full knowledge of Chase’s servicing practices regarding
RCV1.
133. Chase agreed to the Monitor’s condition and
began the process of releasing the liens on the property
securing the charged-off loans in RCV1. However, Chase
did not release the underlying debt for those loans
and continued collection efforts on that debt. Chase
also did not inform the borrower that the lien on the
property securing the loan had been released. Chase
did not inform the Monitor that it was still continuing
to collect on the underlying debt from the borrowers
even though it had released the liens on the on the
property securing the loans.

App.101a
134. Chase instructed its third party contractor,
Nationwide Title Clearing, to file releases on the
liens on the property securing the loans and to NOT
inform the borrowers of the filed release nor provide
them with a copy of the filed release.
135. Since Chase did not release the underlying
debt at the same time it released the lien on the
property securing the loans in RCV1, those loans were
still subject to the requirements of the HAMP.
136. Chase did not inform the MHA-C of its failure
to service charged-off loans in RCV1. Chase also did
not inform the MHA-C that when it released liens of
charged off mortgages that it did not forgive the
borrowers debt or inform the borrowers or the
municipalities were the homes were located that the
liens had been released.
B. The “2nd Lien Extinguishment Program”
137. Instead of following the requirements of the
HAMP or the Consent Judgment, Chase set out—in
an internal document (“DOJ July 2012”)—its own
standards used to grant relief for second liens:


Loans were primary selected based on aging
collectability performance. “Arguably, those with
the smallest likelihood to pay also represent
the populations that need relief the most.”



Loans were rank ordered using a variety of
factors that included aging, balance size and
probability of payment.



Loans were then segmented and binned into 5
distinct groups, each offering its own benefits
and opportunity cost collections.

App.102a


Each bin contains an estimated lifetime
recoveries sum that was used to determine the
impacts to the line of business and 2012 recovery
budget.

138. Using these criteria, Chase tasked its
Mortgage Banking Recovery with identifying second
mortgage home loans for Consent Judgment credit in
the amount of Three Hundred, Ninety-Seven Million
Dollars ($397,000,000.00).
139. Instead of applying the specific criteria set
forth in the MHA Handbook, Chase substituted its
own self-serving algorithm, referencing criteria such
as the number of months since charge-off, last payment
date and age of loan to determine the least valuable
loans in its portfolio.
140. In several Chase internal documents, Chase
specifically references excluding from the loans
considered for Consumer Relief those loans that could
provide a larger monetary benefit to Chase than the
value of the Consumer Relief credit would have.
Examples of loans not included are:


Those loans whose properties were MLS listed;



Those loans that had been charged off in the last
six months; and



Those loans whose borrowers were making
payments in the last year.

141. In short, Chase specifically excluded those
homeowners for whom loan modifications under the
HAMP would have been most effective.
142. The loans chosen for release and crediting
were selected based solely on internal queries of the

App.103a
RCV1-SOR. In other words, they were loans with the
least possibility of collection, no servicing history and
not in compliance with the objectives of the HAMP or
Consent Judgment.
143. Among these loans were loans sold to the
Relator’s entities.
144. The letters were the result of efforts by Chase
to minimize the cost of the Consent Judgment credits
and to maximize its own profitability from the implementation of the Consumer Relief by circumventing the
application process and ignoring the MHA Servicing
Guidelines and the NMSA Servicing Standards.
145. In an internal document entitled “DOJ:
Default: Recovery 2nd Lien Credit Initiative, Financial
Impact Overview, November 14, 2012” (“DOJ November
2012”), Chase began by admitting to itself that the
data from the RCV1 pool was “challenged.”
146. The November 2012 DOJ document is broken
down between identifying issues from the first Chase
mailer and identifying loans to be included in the
second mailer.
147. Chase went on to state that the mailing that
it had sent out on September 13, 2012 had encountered
issues, including “confusion over letters sent (bankruptcy and unsecured customers)” and that “[r]emediation efforts are still in progress.” Those remediation
efforts primarily addressed the issues caused by
mailing borrowers of non-Chase owned loans.
148. Among the non-Chase owned loans were
several loans owned by the Relator’s entities.
149. The DOJ November 2012 document also set
forth the series of admissions as to the failings:

App.104a
Data issues resulted in four high level gaps:


Lien status issues exist within the population;



Inactive loans included in the pool did not
include updated bankruptcy information;



Loans previously sold to investors lacked proper
coding in Recovery One system, causing these
loans to be included in the pool in error; and



Loans previously settled as part of the
“repurchase/make whole” process were not
identified in Recovery One system, causing these
loans to be included in the pool in error.

150. The document acknowledged that 108 loans
were owned by 21 different investors, with 83 out of
108 loans (78 percent) purchased by 8 investors. Relator
owns 3 of the eight identified companies.
151. The Chase DOJ November 2012 document
also stated that the “[m]ethodology would be to tier
older, never paid loans as first into the 2nd mailer
pools.”
152. In evaluating the loans, Chase designed the
searches to focus on various criteria that would rid
Chase of loans that had no possibility of future
payments and that had low lifetime collectability,
thus increasing Chase’s profitability and focusing on
borrowers who were more likely not to need the benefit
because their debt was uncollectable.
153. Chase had had no contact with these
borrowers in over ten years and had no knowledge of
the status of the loans. Due to the corruption of the
data in the RCV1 population, Chase had no information
about these loans and could not have applied the re-

App.105a
quired criteria under the HAMP or Consent Judgment.
154. Chase, in complete disregard for the requirements of the MHA Commitment and the NMSA
Consent Judgment, made no effort to apply the criteria
to any of the borrowers to whom they sent debt
forgiveness letters.
C. The RCV1-SOR Collection Agencies
155. Chase established policies and procedures
for those mortgage loans in the RCV1-SOR that
included the rapid transfer of these borrowers’ accounts
through several levels of third party collections activity,
from primary agencies through quinary agencies,
based on their collection success.
156. Through the use of these serial collection
agencies, Chase increased the profitability of these
defaulted home loans and lowered costs on the funds
collected because these agencies were compensated
based on a percentage collected.
157. Because the collection agencies did not service
the federally related mortgage loans, the RCV1 loan
portfolio was not capable of being serviced as required
by the MHA Program.
158. The use of collection agencies was reserved
for the worst portion of the RCV1-SOR.
159. These collection agencies are unlicensed,
unregulated and do not possess the servicing platforms
to provide any mortgage servicing functions. This
institutional unwillingness to service loans properly
placed Chase in violation of its legal obligations

App.106a
regarding the servicing of hundreds of thousands of
mortgage loans.
160. Six months after the deadline for full implementation of the Servicing Standards of the Consent
Judgment, and years after Chase certified continued
compliance with the Commitment, an internal Chase
document from April 2013 entitled “Chase Home Loan
Servicing and Default: Daily Agency Recovery Summary” stated Chase had 160,309 loans with a total
aggregate outstanding balance of $12,296,131,671.00
assigned to collection agencies for servicing.
161. These loans included 130,204 bank-owned
loans.
162. These loans also included 30,105 serviceonly loans that were under contractual servicing
agreements, such as mortgage backed security loans.
163. This pool of 160,309 loans is but a portion of
the total population included in the RCV1. Based on
information and belief the total number of such loans
has exceeded 500,000.
164. This serial use of collection agencies added
to the data corruption already inherent in the design
of the RCV1. The data was incomplete, inconsistent
and, in many places, irreparably corrupted by the
collection agencies’ involvement in the management
of the data
D. Examples of Loans Where Chase Released the
Lien but Failed to Forgive the Debt and Notify
the Borrower
165. The following are examples of loans, which
had previously been sold to Schneider, and on which

App.107a
Chase released the lien on securing the property
without forgiving the underlying debt on the loan
and still made efforts to collect on the debt even
though the debt was no longer secured. The total
number of such loans sold to Schneider was over 400.
This 400 was representative of Chase’s practice of
releasing liens without notifying the borrower and
forgiving the debt. As of May 2015 Chase had released
of 400,000 loans in RCV1
Borrower

Address of
property

Origination
Date

Date of
Lien
Release

Myers,
Stephanie

371 Hilton
4/18/2007
Avenue
Youngstown,
OH 44507

10/23/2013

Bell,
Raymond

6826
Georgeland
Saint Louis,
MO 63134

9/28/2007

10/24/2013

Fontenot,
Patrick

240 Nimitz
Street
Eunice, LA
70535

12/27/2006

11/12/2013

Lockett,
Shawn

864 Inez
Street
Memphis,
TN 38111
6332
Stanwin
Drive
Apopka, FL
32712

12/18/2007

11/18/2013

9/28/2007

11/20/2013

McKernan,
Shawn

App.108a
Dent, Mary 380 Hudson
Street
Rossville,
GA 30741
Smith,
16650 Mark
Scott
Twain
Street
Detroit, MI
48235
Damstra,
719 Adams
Mark
Street
Apt. 4R
Hoboken NJ
07030
Smith, Ali
1013 Juneau
Avenue
Akron, OH
44320
Harris,
8505
Dorothy
Greenview
Detroit, MI
Thompson, 499
Kirk
Shepherd
Avenue
Brooklyn,
NY 11208
Slate,
7532 Perilla
Donald
Court
Indianapolis,
IN 46237

6/21/2004

12/3/2013

8/2/2007

12/13/2013

9/12/2007

9/18/2014

10/17/2005

10/3/2014

3/17/2004

10/14/2014

10/11/2005

11/7/2014

2/4/2005

3/2/2015

166. As of May 2015, Chase had released over
400,000 liens on loans in RCV1. Following Chase’s
stated practices, most of these liens would have been

App.109a
released without forgiving the underlying debt and
notifying the borrower.
E. Chase’s “Alternative Foreclosure Program”
Violates the Requirements of the Servicing
Standards
167. Chase maintains a policy of not foreclosing
on first lien loans that are secured by properties
located in blighted neighborhoods and where the
underlying property has little or no value. These loans
are least likely to be repaid, represent the highest
reputational risk and the highest servicing costs to
Chase. Instead, Chase seeks another path aimed at
circumventing the issues related to these properties.
This internal Chase policy is known as the “Alternative Foreclosure Program” (“AFP”).
168. The AFP process is an ongoing effort to
conceal legal violations, relieve Chase of liabilities,
mitigate losses and circumvent the objectives and
requirements of the Consent Judgment to prevent
community blight.
169. Under Chase’s AFP, thousands of mortgage
loans have been, and continue to be, quietly released,
with no notice to any interested parties, no documentation or correspondence with homeowners or
others, and no outside indication of any type to alert
interested parties of this action.
170. Chase simply files releases of liens on the
properties securing the underlying loan to appear as
if the borrower had paid off the loan. However, without
notification to the borrower of the release, the loan
remains subject to the HAMP and all of the servicing
requirements thereof.

App.110a
171. These lien releases are not individually
reviewed by Chase to ensure that Chase actually owned
or serviced the mortgages or to ensure the accuracy
and integrity of the borrower’s information but instead
were “robo-signed”; many of which signed by Amy
Knight, who identified herself as a Vice President at
J.P. Morgan Chase Bank and others signed by Ingrid
Whitty and Arocla Whitty who identified themselves
as Vice President and Asst. Secretary respectively of
JPMorgan Chase Bank N.A, Successor In Interest By
Purchase From The FDIC As Receiver of Washington
Mutual Bank, FA F/K/A Washington Mutual Home
Loans, Inc, Successor By Merger to Homeside Lending,
Inc. All of the lien releases indicated that “the
instrument was signed on behalf of its corporation,
by authority from its board of directors.”
172. Prior to the implementation of the AFP, the
underlying loans remained in collection as unsecured
debts despite their status as federally related loans
with all related attributes.
173. Chase applied the AFP to valueless RCV1 first
mortgage loans, which it had not serviced in accordance
with law, thus creating and enhancing community
blight.
174. The use of the RCV1-SOR population in the
application of the AFP meant that, once again, Chase’s
malfeasance affected loans that it neither owned nor
serviced.
175. In addition to the violation of the HAMP,
Relator’s investigation revealed that Chase’s practices
under AFP violated the terms of the anti-blight
requirements of the Consent Judgment. As a result,
Chase has rapidly enhanced blight, rather than limited

App.111a
it, in many of the country’s hardest hit areas, including
areas within Detroit, Michigan, St. Louis, and St.
Louis County, Missouri. This directly violated government policies and publications, such as Fannie
Mae’s Property Preservation Matrix and Reference
Guide, which mandated that throughout the default
process, servicers are responsible for performing all
property maintenance functions to ensure that the
condition and appearance of properties are maintained.
176. Because of Chase’s policies and procedure in
implementing the AFP, Chase merely released liens
in many of the hardest hit areas rather than foreclosing.
Despite electing not to pursue foreclosure, Chase continues to pursue the underlying debt for those loans
in the AFP which require them to be accounted for
through HAMP in the primary SOR.
F. Chase’s Internal Documents and Deposition
Testimony Demonstrate That Chase’s Servicing
Practices Regarding Charged-Off Loans in
RCV1 Violate HAMP Requirements
177. On August 1, 2011 Chase’s Audit Department
issued an internal audit report entitled “Home Lending
—Recovery Operations and Recovery One (RVC) Application.” The period covered by the Audit included
year 2010. The “Key Findings of the report stated:
The current operational and technology
controls over Recovery operations are not
sufficient to ensure compliance with bank
policies, laws and regulations, therefore, an
Inadequate rating is assigned. Issues were
identified that could cause legal and reputational risk in particular relating to the
execution of sworn documents and the need

App.112a
for personal knowledge prior to signing
assertions. Issues were also identified relating
to data integrity, risk management and access
administration.
178. Under Chase’s audit rating system “Inadequate” means: “Internal control processes are generally ineffective. Risk management processes are ineffective, as several issues were noted.”
179. Among the findings of the August 2011 audit
report was that sworn documents were signed without
personal knowledge as required by the HAMP. Also,
the audit report found that RCV1 lacked data integrity
as required by the HAMP. See ¶ 68 above.
180. Chase’s August 1, 2011, internal audit report
confirms that Chase’s 2010 and 2011 Certifications of
Compliance with the SPA represented material false
claims.
181. A Chase document titled “RCV1 Audit Jan 1,
2013” contained the following statements which acknowledged violations of the HAMP.
Operational processes that are not compliant
with existing policy subject the firm to
financial, regulator, and reputational risk.
182. Regarding Quality Assurance the document
stated:
Ineffectively designed key controls increase
the risk of operational issues that may result
in financial loss or regulatory action taken
against the firm.

App.113a
183. In a section titled “Bankruptcy/Foreclosure
Activities performed by Recovery Operations,” the
document stated:
Recover Operations performs bankruptcy and
foreclosure activities for charged off loans
with processes that are not consistent with
similar, more stringent processes in place
with Mortgage Banking teams who service
pre-charge off loans (MB Bankruptcy and MB
Foreclosure Operations teams). Specifically,
chain-of-title reviews are not being performed
to verify and document ownership of Notes
prior to a POC or surplus funds foreclosure
filing, which are both sworn documents.
184. Chase’s document “RCV1 Audit Jan 1, 2013”
confirms that Chase’s 2012 Certification of Compliance
with the SPA represented a material false claim.
185. An internal Chase document entitled “Lien
Release on 1st Lien Walk/Charge-offs” detailed the
determinations made in a teleconference conducted
with Chase staff members on February 14, 2013. Those
determination included:


No letters will be sent to borrowers or municipalities



Debt will not be forgiven as part of this process,
we will just release the lien



Will continue through standard Recovery Process. . . .

186. A document titled “Mortgage Business Banking Requirements,” completed in the Spring of 2013
stated regarding Chase’s lien release project:

App.114a
No letters will be sent to borrowers or municipalities to alert that Chase is releasing the
lien on the loans in scope for this project.
No debt will be forgiven of borrowers associated with the properties which have received
a lien release as part of this project, with
the exception of states where an amended
release is not possible. In such cases the
release will state that all obligations have
been satisfied.
187. Similarly, an internal documentation entitled
“Chase Home Loan Servicing and Default: Daily Agency
Recovery Summary” demonstrated, that borrowers,
whose loans were in the RCV1 population, were not
released of the “liability for the debt” but instead
were still the subject of collections efforts by various
collection agencies who did not service these federally
related mortgages. These mortgage loans were therefore
subject to all HAMP servicing requirements.
188. The foregoing documents represent clear admissions that Chase was not meeting the requirements of the HAMP to exempt lien released loans
from the HAMP’s provisions. See ¶ 109 above.
189. In an email dated June 21, 2013, to Robert
K. Admovic, Patrick M. Boyle, Ormar Kassem, and
Panickos Palettas, Krista R. Hensley, VP Recovery
Operations, Mortgage Banking, Chase, stated “We have
not taken into account whether or not the property is
occupied in the past (for DOJ or current 1st lien
releases to meet DOJ requirements), so I am not sure
why we would need to start using that as a determining
factor.” This email represents a clear admission that
Chase failed to determine whether the borrower met

App.115a
one of the prime criteria to determine if the loan was
eligible for a HAMP modification. See ¶ 58 above.
190. An internal Chase document written in January 2014 states:
Given systemic constraints within Recovery
One, charged-off loans cannot currently be
serviced in the manner prescribed by Reg-X.
As a result, decision has been made to release
liens on Reg-X eligible [closed-ended, purchase
money] loans, rendering them to an unsecured
position, before returning them for recovery
collection activity.
191. Regulation-X includes a restatement of the
definition of a “federally related mortgage loan” contained RESPA. See 12 CFR § 1024.2(b). Regulation
X, effective January 10, 2014, did not change the
requirement of the HAMP to continue servicing
charged-off loans where the debt has not been forgiven
and the borrower notified. Therefore, this statement
admits that Chase was not able to service loans in
RCV1 according to the HAMP requirements. Further,
it demonstrates that Chase sought to continue to profit
from loans that it charged off and lien released in
direct contravention of the HAMP. See ¶ 58 above.
This document confirms that Chase’s 2013 Certification
of Compliance with the SPA represented a material
false claim.
192. Schneider has deposition testimony from a
third party that further confirms Chase’s practice of
not notifying borrowers when Chase released liens.
This deposition is currently subject to an agreement
to treat it as confidential. It will be available to

App.116a
Schneider, if necessary, at summary judgment or at
trial.
193. This practice of filing lien releases without
basic due diligence and with lack of care for the truth
of the recording led to hundreds of the Relator’s loans
being lien released. When Chase was informed, it filed
“vacations” to attempt to reinstall the liens without
borrower permission or knowledge. These vacations are
of two varieties. One variation indicates that “[t]hrough
inadvertence and mistake the undersigned executed
a Release of Mortgage,” or equivalent document of
recording. The other variation states that “[t]hrough
inadvertence and mistake the undersigned executed
a Home Affordable Modification.” The indication that
Chase had executed Home Affordable Modifications,
or HAMP modifications, inadvertently was in fact
false. Chase Has had never contacted any of the
borrowers whose liens had been released to determine
if those loans were eligible for modification under the
HAMP.
194. The documentary evidence and deposition
testimony set out above confirm the allegations in
this complaint that Chase could not and did not service
and provide loan modifications to charged-off mortgages
it had relegated to RCV1 as required by the HAMP.
Therefore, since mortgages in RCV1 where the very
loans that HAMP was designed to address, any certifications of compliance with the HAMP were
material false claims.
VI.
Documentation Containing False Claims
195. On September 29, 2010, Chase filed its Initial
Certification of compliance with its “Commitment to

App.117a
Purchase Financial Instrument and Servicer Participation Agreement.” This Certification contained material false claims.
196. On September 29, 2010, Chase’s subsidiary,
EMC, filed a Certification of compliance with its
“Commitment to Purchase Financial Instrument and
Servicer Participation Agreement.” This Certification
contained material false claims.
197. On or about September 29, 2011, Chase filed
a Subsequent Certification of compliance with its
“Commitment to Purchase Financial Instrument and
Servicer Participation Agreement.” This Certification
contained material false claims.
198. On or about September 29, 2012, Chase filed
a Subsequent Certification of compliance with its
“Commitment to Purchase Financial Instrument and
Servicer Participation Agreement.” This Certification
contained material false claims.
199. On or about September 29, 2013, Chase filed
a Subsequent Certification of compliance with its
“Commitment to Purchase Financial Instrument and
Servicer Participation Agreement.” This Certification
contained material false claims.
200. On or about September 29, 2014, Chase filed
a Subsequent Certification of compliance with its
“Commitment to Purchase Financial Instrument and
Servicer Participation Agreement.” This Certification
contained material false claims.
201. On or about September 29, 2015, Chase filed
a Subsequent Certification of compliance with its
“Commitment to Purchase Financial Instrument and

App.118a
Servicer Participation Agreement.” This Certification
contained material false claims.
VII.
Causes of Action Count I
Federal False Claims Act, 31 U.S.C.
§ 3729(a)(1)(A) & (B) Against All Defendants
202. Relator realleges and incorporates herein by
reference all the allegations set forth in paragraphs 1
through 201 of this Complaint.
203. The Relator seeks relief against Chase under
Section 3729(a)(1)(A) & (B) of the FCA, 31 U.S.C. § 3729
(a)(1)(A) & (B).
204. As set forth above, Chase knowingly presented, or causes to be presented, a false or fraudulent claim for payment or approval and knowingly
made, used, or caused to be made or used, a false
record or statement material to a false or fraudulent
claim. These false claims and false records were made
in the form of certifications of compliance with its
“Commitment to Purchase Financial Instrument and
Servicer Participation Agreement” and records and
documents used to support those certifications.
205. Chase’s use of false reports and certifications
enabled it to obtain payments from the Government
for which it was not entitled.
206. By reason of the forgoing, the United States
has been damaged in a substantial amount to be
determined at trial, and is entitled to treble damages
and a civil penalty as required by law for each violation.

App.119a
PRAYER FOR RELIEF
WHEREFORE, Relator Laurence Schneider
requests that judgment be entered against Defendants,
ordering that:
1. Defendants pay an amount equal to three times
the amount of damages the United States has sustained
because of Defendants’ actions, plus a civil penalty
against Defendants of not less than $5,000, and not
more than $10,000 for each violation of 31 U.S.C.
§ 3729;
2. Relator be awarded the maximum amount
allowed pursuant to 31 U.S.C. § 3730(d);
3. Relator be awarded all costs of this action,
including attorneys’ fees, expenses, and costs pursuant
to 31 U.S.C. § 3730(d); and
4. The United States and Relator be granted all
such other relief afforded by law as the Court deems
appropriate;

App.120a
REQUEST FOR A TRIAL BY JURY
Pursuant to Rule 38 of the Federal Rules of Civil
Procedure, Plaintiff/Relator hereby demands a trial
by jury.
/s/ Joseph A. Black
Joseph A. Black
(D.C. Bar No. 414869)
Daniel E. Cohen
(D.C. Bar No. 414985)
THE CULLENLAW FIRM, PLLC
1101 30th Street, NW
Suite 300
Washington, D.C. 20007
Tel. (202) 944-8600
Fax. (202) 944-8611
Roberto L. Di Marco
Jennifer M. Foster
WALKER & DI MARCO, P.C.
350 Main Street
First Floor
Malden, MA 02148
Tel. (781) 322-3700
Fax. (781) 322-3757

Admitted Pro Hac Vice
Dated: March 27, 2018

App.121a
MEMORANDUM BY MICHAEL D. GRANSTON
(JANUARY 10, 2018)
U.S. DEPARTMENT OF JUSTICE
CIVIL DIVISION
________________________
To:

Attorneys
Commercial Litigation Branch,
Fraud Section
Assistant U.S. Attorneys Handling False
Claims Act Cases Offices of the U.S. Attorneys

From: Michael D. Granston
Director
Commercial Litigation Branch, Fraud Section
Subject: Factors for Evaluating Dismissal
Pursuant to 31 U.S.C. § 3730(c)(2)(A)
Introduction
Over the last several years, the Department has
seen record increases in qui tam actions filed under
the False Claims Act (FCA), 31 U.S.C. § 3729 et seq.,
with annual totals approaching or exceeding 600 new
matters. Although the number of filings has increased
substantially over time, the rate of intervention has
remained relatively static. Even in non-intervened
cases, the government expends significant resources
in monitoring these cases and sometimes must produce
discovery or otherwise participate. If the cases lack
substantial merit, they can generate adverse decisions
that affect the government’s ability to enforce the
FCA. Thus, when evaluating a recommendation to
decline intervention in a qui tam action, attorneys

App.122a
should also consider whether the government’s interests
are served, in addition, by seeking dismissal pursuant
to 31 U.S.C. § 3730(c)(2)(A).
Historically, the Department has utilized section
3730(c)(2)(A) sparingly, in large part because the
statutory text makes clear that relators can proceed
with certain qui tam actions following the government’s
declination. Moreover, a decision not to intervene in
a particular case may be based on factors other than
merit, particularly in light of the government’s limited
resources. Accordingly, we have been circumspect with
the use of this tool to avoid precluding relators from
pursuing potentially worthwhile matters, and to ensure
that dismissal is utilized only where truly warranted.
While it is important to be judicious in utilizing
section 3730(c)(2)(A), it remains an important tool to
advance the government’s interests, preserve limited
resources, and avoid adverse precedent. The Department plays an important gatekeeper role in protecting
the False Claims Act, because in qui tam cases where
we decline to intervene, the relators largely stand in
the shoes of the Attorney General. That is why the
FCA provides us with the authority to dismiss cases.
This memo is intended to provide a general framework
for evaluating when to seek dismissal under section
3730(c)(2)(A) and to ensure a consistent approach to
this issue across the Department. We reviewed those
cases in which the government moved to dismiss
relators pursuant to this statutory provision since
1986, when this provision was added to the FCA. As
discussed below, we identified approximately seven
factors that the government has relied upon in seeking
to dismiss a qui tam action pursuant to section 3730
(c)(2)(A). To ensure consistency across the Department,

App.123a
these factors should serve as a basis for evaluating
whether to seek to dismiss future matters, though they
are not intended to constitute an exhaustive list, and
there may be other reasons for concluding that the
government’s interests are best served by the dismissal
of a qui tam action.1
Finally, as noted below, when the Department is
considering dismissal, relators should be advised of this
possibility since it will inform their judgment regarding whether to voluntarily dismiss their actions.
Discussion
The False Claims Act authorizes the Attorney
General to dismiss a qui tam action over the relator’s
objection:
The Government may dismiss the action notwithstanding the objections of the person
1 In jointly handled and monitored cases, the prior approval of
the Assistant Attorney General is required for a motion to
dismiss a qui tam action, including under section 3730(c)(2)(A).
In delegated cases, the authority for dismissing a qui tam complaint will generally be vested in the U.S. Attorney unless
dismissal would present a novel issue of law or policy, or for any
other reason raises issues that should receive the personal
attention of the Assistant Attorney General. See Civil Division
Directive 1-15, Subpart 1(c). In order to maintain consistency
and evaluate the appropriateness of Assistant Attorney General
approval, U.S. Attorneys’ Offices should provide notice to the
assigned Fraud Section attorney at least 10 days prior to filing
any motion to dismiss in a delegated matter. In addition, for
reporting purposes, the Department will collect information on
an annual basis regarding the number of qui tam complaints
dismissed upon motion by the United States. The Fraud Section
will work with the Executive Office of United States Attorneys
to formulate a reporting mechanism.

App.124a
initiating the action if the person has been
notified by the Government of the filing of
the motion and the court has provided the
person with an opportunity for a hearing on
the motion.
31 U.S.C. § 3730(c)(2)(A).2 The FCA does not, however,
provide a standard of review for evaluating such a
request for dismissal. As a result, courts have developed two differing standards. Compare United States
ex rel. Sequoia Orange Co. v. Baird-Neece Packing
Corp., 151 F.3d 1139, 1145 (9th Cir. 1998) (holding that
the United States must identify a “valid government
purpose” that is rationally related to dismissal) with
Swift v. United States, 318 F.3d 250, 252 (D.C. Cir.
2003) (holding that the United States has an “unfettered right” to dismiss a qui tarn action).
Moreover, the FCA does not set forth specific
grounds for dismissal under section 3730(c)(2)(A).
However, below is a non-exhaustive list of factors
that the Department can use as a basis for dismissal,
along with citations to cases where the government
has previously sought dismissal based on these factors.

2 This is just one of several mechanisms contained in the FCA
to ensure that the United States retains substantial control over
lawsuits brought on its behalf. See also 31 U.S.C. § 3730(c)(1)
(providing government with “the primary responsibility for
prosecuting the action” when it intervenes); 31 U.S.C. § 3730(c)
(2)(B) (allowing government to settle actions over relator’s
objections); 31 U.S.C. § 3730(c)(2)(C) (providing government with
mechanism to restrict relator’s participation in the case); 31
U.S.C. § 3730(b)(1) (requiring relator to obtain government consent
prior to any dismissal of the action).

App.125a
1. Curbing Meritless Qui Tams
The Department should consider moving to dismiss
where a qui tam complaint is facially lacking in merit—
either because relator’s legal theory is inherently
defective, or the relator’s factual allegations are frivolous. Examples of inherent legal defects include qui
tarn actions where the relator failed to allege an
actionable obligation to support a reverse false claim
violation, see, e.g., United States ex rel. Hoyte v.
American National Red Cross, 518 F.3d 61 (D.C. Cir.
2008); United States ex rel. Wright, No. 5:03-264 (ED.
Tex. Feb. 3, 2005), or to allege a non-federal defendant that is not covered by sovereign immunity. See, e.g.,

United States ex rel. Carter v. Board of Governors of
the Federal Reserve, et al., No. 12-0129-cv-W-HFS
(W.D. Mo. May 1, 2013); United States ex rel. Casey v.
Blevins, No. 4:02-CV-60 (E.D. Ark. July 5, 2002);
Braswell v. Unger, No. 4:14-cv-02574-JAB (D. Az.

August 11, 2015). Factually frivolous cases can take a
number of forms. See, e.g., United States ex rel. Roach
v. Obama, No. 14-0470 (D.D.C. December 18, 2014);
United States ex rel. May v. City of Dallas, 2014 WL
5454819, at *5 (N.D. Tex. Oct. 27, 2014); United States
ex rel. Berg v. Obama, 383 F. App’x 7 (D.C. Cir. 2010)
(per curiam); United Slates ex rel. Lachkovich v.
Ashcroft, et al., No. 08-cv-00066-WYD-BNB (D. Colo.
March 13, 2008).

In certain cases, even if the relator’s allegations
are not facially deficient, the government may conclude
after completing its investigation of the relator’s allegations that the case lacks merit. In such a case, the
Department should consider dismissing the matter. See

United States ex rel. Nasuti v. Savage Farms, Inc.,

2014 WL 1327015, at *11 (D. Mass. Mar. 27, 2014),

App.126a
aff’d, 2015 WL 9598315 (1st Cir. 2015) (dismissing qui
tam claims that government concluded were “factually incorrect and without foundation.”); United States
ex rel. Dreyfuse v. Farrell, et al., 3:16-cv-5273 (S.D.
W.Va. March 28, 2017) (granting government’s motion
to dismiss claims that were submitted to state
agency and which did not implicate any federal
programs or funds); United States ex rel. Stierli v.
Shasta Services, Inc., 440 F. Supp. 2d 1108, 1113
(E.D. Cal. 2006) (granting government’s motion to
dismiss because, among other things, there was not
any false or fraudulent claim paid or approved by the
federal government); United States v. Fiske, 968 F.
Supp. 1347, 1353 (E.D. Ark. 1997) (holding that relator’s allegations, even if true, do not involve the submission of any false or fraudulent claim to the federal
government). These cases may be rare, in part, because
to maximize its resources the government typically
will investigate a qui tam action only to the point
where it concludes that a declination is warranted.
This may not equate to a conclusion that no fraud
occurred. If the Department is concerned that a case
lacks any merit, but elects to afford the relator an
opportunity to further develop the case, the Department
attorney may consider advising the relator that dismissal will be considered if the relator is unable to
obtain additional support for the relator’s claims by a
specified date.
2. Preventing Parasitic or Opportunistic Qui Tam
Actions
The Department should consider moving to dismiss
a qui tam action that duplicates a preexisting government investigation and adds no useful information
to the investigation. In these cases, the government

App.127a
should consider whether the relator would receive an
unwarranted windfall at the expense of the public
fisc because Congress intended for the relator share
to incentivize and award the provision of meaningful
information and assistance instead of merely providing
duplicative information already known to the government. See 132 Cong. Rec. 29, 322 (1986) (citing S. Rep.
No. 99-345, at 28 (1986), reprinted in 1986 U.S.C.C.
A.N. 5266, 5293) (discussing factors relevant to awarding a relator share, including “the significance of the
information provided” and whether the government
was already aware of the information prior to relator
providing it). For example, in United States ex rel.
Amico, et al. v. Citi Group, Inc., et al., No. 14-cv-4370
(CS) (S.D.N.Y. August 7, 2015), relators filed a qui
tam action against Citi Group and its subsidiaries
alleging fraud in connection with the marketing and
sale of residential mortgage backed securities; however, the Department of Justice had been investigating
the same conduct for several years prior to the filing
and had engaged in extensive settlement negotiations
before relators filed their complaint. The government
successfully moved to dismiss the action under section
3730(c)(2)(A) because, among other factors, relators’
belated complaint provided no assistance to the government in its pre-existing investigation. See also
United States ex rel. Piacentile v. Amgen Inc., No. 04cv-3983-SJ-RML, 2013 WL 5460640, at *4 (E.D.N.Y.
Sept. 30, 2013) (granting government’s motion to dismiss qui tam complaint filed by serial relator who
filed one of ten qui tams alleging similar wrongdoing
by the same defendant),

App.128a
3. Preventing Interference with Agency Policies
and Programs
Dismissal should be considered where an agency
has determined that a qui tam action threatens to
interfere with an agency’s policies or the administration
of its programs and has recommended dismissal to
avoid these effects. For example, in United States ex
rel. Ridenour v. Kaiser-Hill Co., LLC, 397 F.3d 925
(10th Cir. 2005), relator alleged that a security contractor submitted false claims to the Department of
Energy for deficient security services at Rocky Flats,
a radiologically-contaminated nuclear weapons manufacturing facility that was slated to undergo decontamination and closure. The government successfully
moved to dismiss the action because, among other
things, litigation would delay the clean-up and closure
of the facility by diverting agency personnel and
resources away from the project. 397 F.3d at 937; see
also United States ex rel. Sequoia Orange Co., 151 F.3d
at 1146 (concluding that valid government interests
supporting dismissal included the Department of
Agriculture’s desire to “end the divisiveness in the
citrus industry” by promulgating new citrus marketing
regulations to replace invalidated regulations upon
which the relator based its claims); United States ex
rel. Toomer v. TerraPower, No. 4:16-cv-00226-BLW
(D. Idaho) (Under Seal) (seeking dismissal of allegation
that defendant’s invention constituted government
property, based in part on the concern that this allegation would hinder the Energy Department’s ability
to collaborate with private sector partners). Finally,
there may be instances where an action is both lacking in merit and raises the risk of significant economic
harm that could cause a critical supplier to exit the

App.129a
government program or industry. Cf. United States
ex rel. Harmon v. Trinity Indus., Inc., 872 F.3d 645 (5th
Cir. 2017) (reversing $680 million judgment against
highway guardrail manufacturer based on alleged
manufacturing defects that agency concluded did not
affect eligibility of defendant’s claims).
4. Controlling Litigation Brought on Behalf of
the United States
Relatedly, the Department should consider dismissing cases when necessary to protect the Department’s litigation prerogatives. For example, in In Re
Natural Gas Royalties Qui Tam Litigation, MDL
Docket No. 1293 (D. Wyo. October 9, 2002), relator filed
separate qui tam actions in various districts against
more than 300 defendants accused of underpaying
royalties owed to the United States in connection
with natural gas produced from federal lands. After
intervening as to a limited number of defendants, the
government sought to dismiss certain declined claims
to, among other things, avoid interference with the
government’s ability to litigate the intervened claims.
The court agreed, finding that the interest in avoiding
interference with ongoing litigation warranted dismissal of the declined claims. See also Lion Raisins v.
Kagawa, et al., No. CV-F-02-5665-REC-LJO (E.D. Cal.
Nov. 3, 2003) (granting government’s motion to dismiss,
concluding that government’s desire to avoid interference with pending Federal Torts Claims Act action
involving the same parties was a valid government
purpose that was rationally related to dismissal). In
addition, in United States ex rel. Wright v. Agip
Petroleum Co., No. 5:03-264 (E.D. Tex. Feb. 3, 2005),
the government moved to dismiss, in part, to avoid
the risk of unfavorable precedent. See id. Finally, in

App.130a

United States ex rel. Piacentile, 2013 WL 5460640,

the government moved to dismiss a declined claim
that was serving as an obstacle to the settlement of
the government’s intervened claims. But cf. United
States ex rel. Schweizer v. Oce, 677 F.3d 1228 (D.C.
Cir. 2012) (once the government reaches a settlement
with defendant of relator’s claims, the dismissal of
those claims is governed by section 3730(c)(2)(B), requiring a showing that the settlement is fair, adequate,
and reasonable, rather than by section 3730(c)(2)(A)).3
5. Safeguarding Classified Information
National Security Interests

and

In certain cases, particularly those involving
intelligence agencies or military procurement contracts,
we should seek dismissal to safeguard classified
information. For example, in United States ex rel. Fay
v. Northrup Grumman Corp., No. 06-cv-00581-EWNMJW, 2008 WL 877180 (D. Colo. Mar. 27, 2008), the
relator alleged that a defense contractor defrauded
the United States in connection with work performed
on a classified contract. After declining to intervene,
the Department moved to dismiss the action under
section 3730(c)(2)(A), asserting that continued litigation would pose “an unacceptable risk to national
security” due to the potential for disclosure of classified
information. Applying the Sequoia Orange standard,
the Court agreed, concluding that the claims and
defenses were inextricably tied to classified informa3 In each of the foregoing cases, in addition to determining that the
dismissed claims were interfering with the government’s litigation prerogatives, the government’s briefs make clear that the
government had determined that the claims lacked substantial
merit.

App.131a
tion and dismissal was rationally related to the valid
government interest of preventing the disclosure of
such information. Id. at * 6-7. See also United States
ex rel. Matseki v. Raytheon Co., 634 F. App’x 192
(9th Cir. 2015) (per curiam) (holding that government
interest in avoiding disclosure of classified information was sufficient basis for dismissal); United States
ex rel. Schwartz v. Raytheon Co., 150 F. App’x 627
(9th Cir. 2005) (holding that “federal interest in protecting military and state secrets” was valid basis for
dismissal); United States ex rel. Ridenour, 397 F.3d
at 936-37 (“The Government demonstrated that classified documents required in the litigation would present
a risk of inadvertent disclosure, implicating national
security.”). Finally, it should be noted that the government need not demonstrate that continued litigation will result in the disclosure of classified information. In jurisdictions that apply the “rational basis”
basis test, the government has a strong argument that
the risk of disclosure, alone, justifies dismissal. See
United States ex rel. Ridenour, 397 F.3d at 937
(finding risk of inadvertent disclosure of classified
information, “even if theoretically minimal,” sufficed
to justify dismissal). (In jurisdictions that apply the
“unfettered right” standard, no showing by the government is required.)
6. Preserving Government Resources
The Department should also consider dismissal
under section 3730(c)(2)(A) when the government’s
expected costs are likely to exceed any expected gain.4
4 Cost to the government includes the opportunity cost of expending
resources on other matters with a higher and/or more certain
recovery.

App.132a

See, e.g., Swift v. United States, 318 F.3d 250, 251 (D.C.

Cir. 2003) (the government moved to dismiss the
complaint, arguing that the amount of money involved
did not justify the expense of litigation even if the
allegations could be proven); United States ex rel.
Nicholson v. Spigelman, et al., No. 1:10-cv-03361,
2011 WL 2683161, at *2 (N.D. 111. July 8, 2011)
(explaining that the estimated government losses,
even with statutory penalties and damages multiplier,
were less than the costs of monitoring the litigation
and responding to discovery requests) Examples of
potential costs may include, among other things, the
need to monitor or participate in ongoing litigation,
including responding to discovery requests. See, e.g.,
United States ex rel. Sequoia Orange Co., 151 F.3d at
1146 (holding that district court “properly noted that
the government can legitimately consider the burden
imposed on taxpayers by its litigation, and that, even
if the relators were to litigate the FCA claims, the
government would continue to incur enormous internal
staff costs”); United States ex rel. Levine v. Avnet,
Inc., No. 2:14-cv-17-WOB-CJS, 2015 WL 42359 (E.D.
Ky. Apr. 1, 2015) (holding that dismissal of qui tam
complaint “will further [the government’s] interest in
preserving scare resources” that would otherwise be
spent “monitoring [relator’s] action”). In some cases,
the government may also be liable for the defendant’s
litigation costs if the defendant prevails in the action.
See, e.g., FAR § 31.205-47(c).
7. Addressing Egregious Procedural Errors
The Department may also seek dismissal of a qui
tam action pursuant to section 3730(c)(2)(A) based on

problems with the relator’s action that frustrate the
government’s efforts to conduct a proper investigation.

App.133a
For example, in United States ex rel. Surdovel v.
Digirad Imaging Solutions, No. 07—cv-0458, 2013 WL
6178987 (E.D. Pa. Nov. 25, 2013), the relator ignored
repeated requests from the Office of the U.S. Attorney to serve the qui tam complaint and disclose
material facts as required by 31 U.S.C. § 3730(b). The
Court granted the government’s motion to dismiss the
action because the “egregious procedural errors completely frustrated the government’s ability to investigate the relator’s claims.” Id. at *4. But cf. State Farm

Fire and Cas. Co. v. United States ex rel. Rigsby,
___U.S.___, 137 S. Ct. 436, 440 (2016) (holding that

relators’ violation of FCA’s seal requirement did not
mandate automatic dismissal of relators’ complaint).
[* * * ]
Several additional points are in order with respect
to the use of the government’s dismissal authority
under section 3730(c)(2)(A). First, while the Department’s position has been that the appropriate standard for dismissal under section 3730(c)(2)(A) is the
“unfettered” discretion standard adopted by the D.C.
Circuit rather than the “rational basis” test adopted
by the 9th and 10th Circuits, we should argue that
even the latter standard was intended to be a highly
deferential one. Moreover, in those jurisdictions where
the standard remains unresolved, in many cases the
prudent course may be to identify the government’s
basis for dismissal and to argue that it satisfies any
potential standard for dismissal under section 3730
(c)(2)(A).

Second, the factors identified above are not
mutually-exclusive, and the Department has often
relied on multiple grounds for dismissal (for example,
lack of merit and need to safeguard classified infor-

App.134a
mation). Nor, as noted above, are the factors identified
in this memorandum intended to constitute an exhaustive list—there may be other reasons for concluding
that the government’s interests are best served by
the dismissal of a qui tam action.
Third, in some cases there may be alternative
grounds for seeking dismissal other than section
3730(c)(2)(A), such as the first to file bar, the public
disclosure bar, the tax bar, the bar on pro se relators,
or Federal Rule of Civil Procedure 9(b). Although the
Department has sometimes moved to dismiss on these
grounds under section 3730(c)(2)(A), we believe the
better approach is to assert these grounds separately
since they can provide alternative, independent legal
bases for dismissal. It may sometimes be appropriate,
however, to move for dismissal under section 3730
(c)(2)(A) in the alternative based on one or more for
the factors listed above.
Fourth, section 3730(c)(2)(A) does not require the
government “to proceed in an all or nothing manner.”
See Juliano v. Fed. Asset Disposition Ass ‘n, 736 F.
Supp. 348, 351-53 (D.D.C.1990) (“The [FCA] nowhere
states that federal prosecutors are confined to proceed
in an all or nothing manner, being forced to take or
leave the qui tam plaintiffs charges wholesale.”). In
certain situations, it may be appropriate to seek only
partial dismissal of some defendants or claims. See
id. (granting motion for partial dismissal under
3730(c)(2)(A)); United States ex rel. Grober v. Summit
Medical Group, Inc., No. 02-177-C (W.D. Ky. July 9,
2004) (same).
Fifth, where a qui tam case is a potential candidate
for dismissal, Department attorneys should consult
closely with the affected agency as to whether dismissal

App.135a
is warranted under any of the factors set forth in
this guidance. The agency’s recommendation should
be obtained in advance of the filing of any request to
dismiss. In cases where dismissal under section
3730(c)(2)(A) is opposed by the agency (because, for
example, it would require the government to disclose
sensitive information or could result in other collateral
consequences), there may be alternative ways to address
the deficiencies while accommodating the agency’s
desire to forego seeking dismissal. For example, if
the agency views the alleged falsity as immaterial,
the United States can provide an agency declaration
to that effect. See Trinity, 872 F.3d at 664 (holding
that district court erred in concluding alleged falsity
was material to agency despite agency memorandum
stating that there was “an unbroken chain of eligibility
for Federal reimbursement” for the allegedly defective
product at issue).
Sixth, although a motion to dismiss under section
3730(c)(2)(A) will often be filed at or near the time of
declination, there may he cases where dismissal is
warranted at a later stage, particularly when there
has been a significant intervening change in the law
or evidentiary record. However, if one waits until the
close of discovery or trial, there is a risk that the
court may be less receptive to the request given the
expenditure of resources by the court and parties.
The court may also be less receptive to a motion filed
at a later stage when doing so undercuts a claimed
desire to avoid or reduce costs associated with discovery
or safeguard information in discovery. Attorneys
considering dismissal should therefore allow for sufficient time to consult with the affected agency and, in

App.136a
delegated cases, to provide appropriate notice to the
Fraud Section
Finally, attorneys planning to recommend declination or dismissal should, to the extent possible,
consider advising relators of perceived deficiencies in
their cases as well as the prospect of dismissal so
that relators may make an informed decision regarding
whether to proceed with the action. In many cases,
relators may choose to voluntarily dismiss their actions,
particularly if the government has advised the relator
that it is considering seeking dismissal under section
3730(c)(2)(A).5

5 Since January 1, 2012, more than 700 qui tam actions have been
dismissed by relators after the government elected not to intervene.
The frequency with which relators voluntarily dismiss declined
qui tam actions has significantly reduced the number of cases
where the government might otherwise have considered seeking
dismissal pursuant to section 3730(c)(2)(A).

App.137a
SERVICER PARTICIPATION AGREEMENT
(NOVEMBER 29, 2018)
AMENDED AND RESTATED
COMMITMENT TO PURCHASE FINANCIAL INSTRUMENT
AND

SERVICER PARTICIPATION AGREEMENT
This Amended and Restated Commitment to
Purchase Financial Instrument and Servicer
Participation Agreement (the “Commitment”) is entered
into as of the Effective Date, by and between Federal
National Mortgage Association, a federally chartered
corporation, as financial agent of the United States
(“Fannie Mae”), and the undersigned party (“Servicer”).
Capitalized terms used, but not defined contextually,
shall have the meanings ascribed to them in Section
12 below.
Recitals
WHEREAS, the U.S. Department of the Treasury
(the “Treasury”) has established a Horne Affordable
Modification Program (the “HAMP”) pursuant to section
101 and 109 of the Emergency Economic Stabilization
Act of 2008 (the “Act”), as section 109 of the Act has
been amended by section 7002 of the American
Recovery and Reinvestment Act of 2009;
WHEREAS, Fannie Mae, as financial agent of the
United States, and Servicer entered into a Commitment
to Purchase Financial Instrument and Servicer
Participation Agreement for the Home Affordable
Modification Program under the Emergency Economic
Stabilization Act (the “Prior Agreement”) in connection
with the implementation of HAMP, the primary pur-

App.138a
pose of which was the modification of first lien
mortgage loan obligations and the provision of loan
modification and foreclosure prevention services relating thereto (the “HAMP Services”);
WHEREAS, the Treasury has established a variety
of new programs (together with the HAMP, the
“Programs”) under the Act to further stabilize the
housing market by facilitating second lien mortgage
loan modifications and extinguishments, providing
home price decline protection incentives, encouraging
foreclosure alternatives, such as short sales and
deeds in lieu of foreclosure, and making other foreclosure prevention services available to the marketplace (collectively, together with the HAMP Services,
the “Services”);
WHEREAS, the Programs may include Services
relating to FHA, VA and USDA loans;
WHEREAS, Fannie Mae has been designated by
the Treasury as a financial agent of the United States
in connection with the implementation of the Programs;
all references to Fannie Mae in the Agreement shall
be in its capacity as financial agent of the United
States;
WHEREAS, Fannie Mae will fulfill the roles of
administrator and record keeper for the Programs,
and in conjunction therewith must standardize certain
mortgage modification and foreclosure prevention
practices and procedures as they relate to the Programs,
consistent with the Act and in accordance with the
directives of, and guidance provided by, the Treasury;
WHEREAS, Federal Home Loan Mortgage Corporation (“Freddie Mac”) has been designated by the
Treasury as a financial agent of the United States and

App.139a
will fulfill a compliance role in connection with the
Programs; all references to Freddie Mac in the
Agreement shall be in its capacity as compliance agent
of the Programs;
WHEREAS, Fannie Mae and Servicer desire to
amend and restate the Prior Agreement in its entirety
as set forth herein;
WHEREAS, all Fannie Mae and Freddie Mac
approved servicers are being directed through their
respective servicing guides and bulletins to implement
the Programs with respect to mortgage loans owned,
securitized, or guaranteed by Fannie Mae or Freddie
Mac (the “G SE Loans”); accordingly, this Agreement
does not apply to the GSE Loans;
WHEREAS, all other servicers, as well as Fannie
Mae and Freddie Mac approved servicers, that wish
to participate in the Programs with respect to loans
that are not GSE Loans (collectively, “Participating
Servicers”) must agree to certain terms and conditions
relating to the respective roles and responsibilities of
participants and other financial agents of the government; and
WHEREAS, Servicer wishes to participate in the
Programs as a Participating Servicer on the terms
and subject to the conditions set forth herein.
Accordingly, in consideration of the representations, warranties, and mutual agreements set forth
herein and for other good and valuable consideration,
the receipt and sufficiency of which are hereby acknowledged, Fannie Mae and Servicer agree to amend
and restate the Prior Agreement in its entirety, as
follows.

App.140a
Agreement
1.

Services

A. Contemporaneously with the execution and
delivery of this Commitment and the Financial
Instrument, Servicer will execute and deliver to Fannie
Mae one or more schedules describing the Services to
be performed by Servicer pursuant to this Agreement,
effective as of the Effective Date of the Agreement
(each, a “Service Schedule” or an “Initial Service Schedule”
and, collectively, the “Initial Service Schedules”),
After the Effective Date of the Agreement, Servicer
may opt-in to any additional initiatives offered by
Treasury in connection with the Programs by
executing and delivering to Fannie Mae one or more
additional Service Schedules describing the Services
relating to such initiatives (each, a “Service Schedule”
or an “Additional Service Schedule” and, collectively,
the “Additional Service Schedules”) (the Initial Service
Schedules and the Additional Service Schedules, collectively, the “Service Schedules”). All Service Schedules
that are executed and delivered to Fannie Mae by
Servicer from time to time will be numbered sequentially (e.g. Service Schedule A-1; Service Schedule A2; Service Schedule A-3; et seq.) and are referenced
herein, collectively, as Exhibit A; Exhibit A is hereby
incorporated into the Commitment by this reference.
B. Subject to Section 10.C., Servicer shall perform
the Services described in (i) the Financial Instrument
attached hereto as Exhibit B (the “Financial
Instrument”); (ii) the Service Schedules attached
hereto, collectively, as Exhibit A; (iii) the guidelines
and procedures issued by the Treasury with respect
to the Programs outlined in the Service Schedules

App.141a
(the “Program Guidelines”); and (iv) any supplemental
documentation, instructions, bulletins, frequently
asked questions, letters, directives, or other
communications, including, but not limited to, business
continuity requirements, compliance requirements,
performance requirements and related remedies, issued
by the Treasury, Fannie Mae, or Freddie Mac in order
to change, or further describe or clarify the scope of,
the rights and duties of the Participating Servicers in
connection with the Programs outlined in the Service
Schedules (the “Supplemental Directives” and, together
with the Program Guidelines, the “Program Documentation”). The Program Documentation will be available to all Participating Servicers at www.HMPadmin.
com; for the avoidance of doubt, the term “Program
Documentation” includes all of the Program Guidelines and Supplemental Directives issued by Treasury
and made available to Participating Servicers at
www.HMPadmin.com prior to the Effective Date of
the Agreement. The Program Documentation, as the
same may be modified or amended from time to time
in accordance with Section 10 below, is hereby incorporated into the Commitment by this reference,
C. Servicer’s representations and warranties, and
acknowledgement of an agreement to fulfill or satisfy
certain duties and obligations, with respect to its
participation in the Programs and under the Agreement
are set forth in the Financial Instrument. Servicer’s
certification as to its continuing compliance with, and
the truth and accuracy of, the representations and
warranties set forth in the Financial Instrument will
be provided annually in the form attached hereto as
Exhibit C (the “Certification”), beginning on June 1,
2010 and again on June 1 of each year thereafter during

App.142a
the Term (as defined below) and upon the execution
and delivery by Servicer of any Additional Service
Schedule during the Term.
D. The recitals set forth above are hereby incorporated herein by this reference.
2.

Authority and Agreement to Participate in Programs

A. Servicer shall perform the Services for all
mortgage loans it services, whether it services such
mortgage loans for its own account or for the account
of another party, including any holders of mortgagebacked securities (each such other party, an “Investor”).
B. Fannie Mae acknowledges that Servicer may
service mortgage loans for its own account or for the
account of one or more Investors and may be subject
to restrictions set forth in pooling and servicing
agreements or other servicing contracts governing
Servicer’s servicing of a mortgage loan; Servicer shall
use reasonable efforts to remove all prohibitions or
impediments to its authority, and use reasonable efforts
to obtain all third party consents, waivers and
delegations that are required, by contract or law, in
order to perform the Services.
C. Notwithstanding subsection B., if (x) Servicer
is unable to obtain all necessary consents, waivers
and delegations for performing any Services under
the Programs, or (y) the pooling and servicing agreement or other servicing contract governing Servicer’s
servicing of a mortgage loan prohibits Servicer from
performing such Services for that mortgage loan,
Servicer shall not be required to perform such Services
with respect to that mortgage loan and shall not
receive all or any portion of the Purchase Price

App.143a
(defined below) otherwise payable for such Services
with respect to such loan.
D. Notwithstanding anything to the contrary
contained herein, the Agreement does not apply to
GSE Loans. Servicers are directed to the servicing
guides and bulletins issued by Fannie Mae and Freddie
Mac, respectively, concerning the Programs as applied
to GSE Loans.
E. Servicer’s performance of the Services and
implementation of the Programs shall be subject to
review by Freddie Mac and its agents and designees
as more fully set forth in the Agreement.
3.

Set Up; Prerequisite to Payment

Servicer will provide to Fannie Mae: (a) the set up
information required by the Program Documentation
and any ancillary or administrative information
requested by Fannie Mae in order to process Servicer’s
participation in the Programs as a Participating
Servicer on or before the Effective Date of the Agreement as to the Initial Service Schedules that are
executed and delivered contemporaneously herewith,
and on or before the effective date of the Additional
Service Schedules (if any) executed and delivered after
the Effective Date of the Agreement; and (b) the data
elements for each mortgage obligation, property, or
borrower eligible for the Programs as and when
described in the Program Documentation and the
Financial Instrument. Purchase Price payments will
not be remitted pursuant to Section 4 with respect to
Services for which the required data elements have
not been provided.

App.144a
4.

Agreement to Purchase Financial Instrument;
Payment of Purchase Price

A. Fannie Mae, in its capacity as a financial
agent of the United States, agrees to purchase, and
Servicer agrees to sell to Fannie Mae, in such capacity,
the Financial Instrument that is executed and delivered
by Servicer to Fannie Mae in the form attached hereto
as Exhibit B, in consideration for the payment by
Fannie Mae, as agent, of the Purchase Price.
B. The conditions precedent to the payment by
Fannie Mae of the Purchase Price with respect to the
Services described on the Initial Service Schedules
are: (a) the execution and delivery of the Commitment,
the Initial Service Schedules, and the Financial
Instrument by Servicer to Fannie Mae; (b) the execution
and delivery of the Commitment and the Initial Service
Schedules by Fannie Mae to Servicer; (c) the delivery
of copies of the fully executed Commitment, Initial
Service Schedules and Financial Instrument to
Treasury on the Effective Date of the Agreement; (d)
the performance by Servicer of the Services described
in the Agreement, in accordance with the terms and
conditions thereof, to the reasonable satisfaction of
Fannie Mae and Freddie Mac; and (e) the satisfaction
by Servicer of such other obligations as are set forth
in the Agreement.
C. The conditions precedent to the payment by
Fannie Mae of the Purchase Price with respect to the
Services described on the Additional Service Schedules
(if any) are: (a) the execution and delivery of the
Additional Service Schedules and the Certification by
Servicer to Fannie Mae; (b) the execution and delivery
of the Additional Service Schedules by Fannie Mae to
Servicer; (c) the delivery of copies of the fully executed

App.145a
Additional Service Schedules to Treasury; (d) the
performance by Servicer of the Services described in
the Agreement, in accordance with the terms and
conditions thereof, to the reasonable satisfaction of
Fannie Mae and Freddie Mac; and (e) the satisfaction
by Servicer of such other obligations as are set forth
in the Agreement.
D. Solely in its capacity as the financial agent of
the United States, and subject to subsection E. below,
Fannie Mae shall remit all payments described in the
Program Documentation to Servicer for the account
or credit of Servicer, Investors and borrowers, in each
case in accordance with the Program Documentation
(all such payments, collectively, the “Purchase Price”);
all payments remitted to Servicer for the credit or
account of third parties under the Program Documentation shall be applied by Servicer as required by
the Program Documentation. Fannie Mae shall have no
liability to Servicer with respect to the payment of
the-Purchase Price, unless and until: (a) Servicer and
all other interested parties have satisfied all prerequisites set forth herein and in the Program Documentation relating to the applicable Program payment
structure, including, but not limited to, the delivery
of all data elements required by Section 3 of this
Commitment; and (b) the Treasury has provided funds
to Fannie Mae for remittance to Servicer, together
with written direction to remit the funds to Servicer
in accordance with the Program Documentation.
E. The Purchase Price will be paid to Servicer by
Fannie Mae as the financial agent of the United States
as and when described herein and in the Program
Documentation in consideration for the execution
and delivery of the Financial Instrument by Servicer

App.146a
on or before the Effective Date of the Agreement,
upon the satisfaction of the conditions precedent to
payment described in this Section 4.
F. The value of the Agreement is limited to
$4,532,750,000.00 (the “Program Participation Cap”).
Accordingly, the aggregate Purchase Price payable to
Servicer under the Agreement with respect to all
Services described on all of the Service Schedules
that are executed and delivered in connection with
the Agreement may not exceed the amount of the
Program Participation Cap. For each Service to be
performed by Servicer, the aggregate remaining
Purchase Price available to be paid to Servicer under
the Agreement will be reduced by the maximum
Purchase Price potentially payable with respect to
that Service. In the event the Purchase Price actually
paid with respect to that Service is less than the
maximum Purchase Price potentially payable, the
aggregate remaining Purchase Price available to be
paid to Servicer under the Agreement will be increased
by the difference between such amounts. Notwithstanding the foregoing, no agreements with any party
that may result in a new payment obligation under the
Programs will be effected under the Agreement, and
no payments will be made with respect to any new
Services, from and after the date on which the
aggregate Purchase Price paid or payable to Servicer
under the Agreement equals the Program Participation Cap. Treasury may, from time to time in its
sole discretion, adjust the amount of the Program
Participation Cap. Servicer will be notified of all
adjustments to the Program Participation Cap in
writing by Fannie Mae.

App.147a
G. Servicer shall maintain complete and accurate
records of, and supporting documentation for, all
Services provided in connection with the Programs
including, but not limited to, data relating to borrower
payments (e.g., principal, interest, taxes, homeowner’s
insurance, hazard insurance, flood insurance and
homeowner’s association and/or condo fees), delinquencies and the terms of each agreement executed
under the Programs (e.g., trial modification agreements,
loan modification agreements and extinguishment
agreements), which will be relied upon by Fannie Mae
when calculating, as financial agent for the United
States, the Purchase Price to be paid by the Treasury
through Fannie Mae or any other financial agent.
Servicer agrees to provide Fannie Mae and Freddie
Mac with documentation (including copies of executed
borrower agreements) and other information with
respect to any amounts paid by the Treasury as may
be reasonably requested by such parties. In the event
of a discrepancy or error in the amount of the Purchase
Price paid hereunder, at Fannie Mae’s election, (x)
Servicer shall remit to Fannie Mae the amount of any
overpayment within thirty (30) days of receiving a
refund request from Fannie Mae, or (y) Fannie Mae
may immediately offset the amount of the overpayment
against other amounts due and payable to Servicer
by Fannie Mae, as financial agent of the United States,
upon written notice to Servicer. Servicer shall still be
obligated to credit
Financial Instrument
This Financial Instrument is delivered as provided
in Section 1 of the Amended and Restated Commitment
to Purchase Financial Instrument and Servicer

App.148a
Participation Agreement (the “Commitment”), entered
into as of the Effective Date, by and between Federal
National Mortgage Association (“Fannie Mae”), a federally chartered corporation, acting as financial
agent of the United States, and the undersigned party
(“Servicer”). This Financial Instrument is effective as
of the Effective Date. All of the capitalized terms that
are used but not defined herein shall have the meanings
ascribed to them in the Commitment.
For good and valuable consideration, the receipt
and sufficiency of which is hereby acknowledged,
Servicer agrees as follows:
1.

Purchase Price Consideration; Services. This
Financial Instrument is being purchased by
Fannie Mae pursuant to Section 4 of the
Commitment in consideration for the payment
by Fannie Mae, in its capacity as a financial
agent of the United States, of various payments detailed in the Program Documentation
and referred to collectively in the Commitment as the “Purchase Price.”
(a) The conditions precedent to the payment
by Fannie Mae of the Purchase Price with
respect to the Services described on the
Initial Service Schedules are: (i) the
execution and delivery of this Financial
Instrument, the Commitment and the
Initial Service Schedules by Servicer to
Fannie Mae; (ii) the execution and delivery of the Commitment and the Initial
Service Schedules by Fannie Mae to
Servicer; (iii) the delivery of copies of
the fully executed Commitment, Initial
Service Schedules and Financial Instru-

App.149a
ment to Treasury on the Effective Date
of the Agreement; (iv) the performance
by Servicer of the Services described in
the Agreement; and (v) the satisfaction
by Servicer of such other obligations as
are set forth in the Agreement. Servicer
shall perform all Services in consideration for the Purchase Price in accordance with the terms and conditions of
the Agreement, to the reasonable satisfaction of Fannie Mae and Freddie Mac.
(b) The conditions precedent to the payment
by Fannie Mae of the Purchase Price with
respect to the Services described on the
Additional Service Schedules (if any) are:
(i) the execution and delivery of the
Additional Service Schedules and the
Certification by Servicer to Fannie Mae;
(ii) the execution and delivery of the
Additional Service Schedules by Fannie
Mae to Servicer; (iii) the delivery of
copies of the fully executed Additional
Service Schedules to Treasury; (iv) the
performance by Servicer of the Services
described in the Agreement, in accordance with the terms and conditions
thereof, to the reasonable satisfaction
of Fannie Mae and Freddie Mac; and
(v) the satisfaction by Servicer of such
other obligations as are set forth in the
Agreement.
2.

Authority and Agreement to Participate in
Program. Subject to the limitations set forth in
Section 2 of the Agreement, Servicer shall

App.150a
use reasonable efforts to remove all prohibitions or impediments to its authority
and to obtain all third party consents, waivers
and delegations that are required, by contract or law, in order to perform the Services.
3.

Audits, Reporting and Data Retention.
(a) Freddie Mac, the Federal Housing Finance Agency and other parties designated by the Treasury or applicable law
shall have the right during normal
business hours to conduct unannounced,
informal onsite visits and to conduct
formal onsite and offsite physical, personnel and information technology
testing, security reviews, and audits of
Servicer and to examine all books, records
and data related to the Services provided
and Purchase Price received in connection
with each of the Programs in which
Servicer participates on thirty (30)
days’ prior written notice.

App.151a

MAKING HOME AFFORDABLE
HANDBOOK FOR SERVICERS
OF NON-GSE MORTGAGES,
RELEVANT EXCERPTS
(AUGUST 17, 2012)

MAKING HOME AFFORDABLE

MAKING HOME AFFORDABLE® PROGRAM
HANDBOOK FOR SERVICERS OF NON-GSE MORTGAGES

Version 4.0
As of August 17, 2012

App.152a
1. Servicer Participation in MHA
1.1 Servicer Participation Agreement
To participate in MHA for Non-GSE Mortgages,
the servicer must register and execute a Servicer
Participation Agreement, related documents, and, if
applicable, one or more Service Schedules (SPA) with
the Program Administrator on or before October 3,
2010. The SPA governs servicer participation in
MHA for all Non-GSE Mortgages.
The entity that has the direct contractual obligation to the investor to perform the servicing functions
is the entity that will formally elect to participate in
MHA by signing the SPA. This entity will sign the
SPA regardless of whether (i) it has engaged one or
more subservicers to perform some or all of the
servicing functions on its behalf or (ii) it is subject to
oversight by a master servicer that does not have a
direct contractual obligation to the investor to perform
the servicing functions. If the entity that signed the
SPA sub-contracts out any portion of its responsibilities
as a servicer to another party, the entity that signed
the SPA will be liable for the acts and omissions of
the sub-contracted party under the SPA.
MHA reflects usual and customary industry standards for mortgage loan modifications, short sales
and DILs contained in typical servicing agreements,
including pooling and servicing agreements (PSAs)
governing private label securitizations. Participating
servicers are required to consider all eligible mortgage
loans for Services (as defined in the SPA) unless
prohibited by the rules of the applicable PSA and/or
other investor servicing agreements. As further
described in Section 1.3, participating servicers are

App.153a
required to use reasonable efforts to remove any
prohibitions and obtain waivers or approvals from all
necessary parties in order to carry out the requirements of the SPA.
Section 9 of the SPA identifies for each party one
or more points of contact for receipt of legal notices
under the SPA. Section 9 also permits each party to
designate a different point of contact in writing. If
the Program Administrator is informed by a representative of a servicer that the individual identified
in Section 9 of a SPA as the servicer’s point of contact
is no longer available to receive legal notices on behalf
of that servicer (for example, because he or she has
left the servicer organization), then unless and until
the servicer designates a different point of contact for
purposes of Section 9 to the Program Administrator
in writing, legal notices under Section 9 from the
Program Administrator to the servicer may also be
sent to the person(s) designated as the “Primary
Contact’ and/or “Secondary Contact” in the then-current
HAMP Registration Form on file with the Program
Administrator for such servicer.
1.2 Servicer Safe Harbor
As part of Helping Families Save Their Homes
Act of 2009 (HFSTHA), Congress established the
Servicer Safe Harbor by amending the Truth in Lending Act for the purpose of providing a safe harbor to
enable such servicers to modify and refinance mortgage
loans and engage in other loss mitigation activities
under a “qualified loss mitigation plan.” Treasury
has determined that each residential loan modification
under HAMP (Tier 1 and Tier 2) (including Principal
Reduction Alternative (PRA) modifications) and 2MP,

App.154a
each modification and refinance under FHA Refinance
and FHA2LP, as well as each short sale and deed-inlieu of foreclosure under HAFA and each forbearance
plan under UP, is a “qualified loss mitigation plan”
as defined in the Servicer Safe Harbor. However, this
guidance does not mean that each such qualified loss
mitigation plan automatically qualifies for safe harbor
protection under HFSTHA. Servicers are reminded to
refer to Section 201 of HFSTHA, which sets forth the
specific requirements that must be satisfied. For
example, these requirements include, among other items,
that:


The servicer must implement the qualified
loss mitigation plan prior to December 31,
2012;



Default on the payment of the related mortgage must have occurred, be imminent, or be
reasonably foreseeable;



The mortgagor must occupy the property
securing the mortgage as his or her principal
residence; and



The servicer must reasonably determine that
the qualified loss mitigation plan will likely
provide an anticipated recovery on the outstanding principal mortgage debt in excess of
the anticipated recovery through foreclosure.

1.3 Investor Solicitation
Within 90 days of executing a SPA, the servicer
must review all servicing agreements to determine
investor participation in HAMP. Within 30 days of
identifying an investor as a nonparticipant, or as
unwilling to extend its participation in MHA to include

App.155a
any extension or expansion of an MHA program, or
identifying a servicing agreement that limits or prohibits a servicer from offering any assistance available
under MHA, including HAMP Tier 2 modifications
(i.e., prohibition against modification of non-owner
occupied mortgages or limits on multiple modification
of the same mortgage), the servicer must contact the
investor in writing at least once, encouraging the
investor to permit modifications and other assistance
available under the extended and expanded MHA
programs.
Servicers, within 120 days of signing the SPA,
must create and maintain in their records an Investor
Participation List containing the following information:
(1) the number of investors for whom it services
loans; (2) a list of those investors who do not participate
in HAMP; (3) the number of loans serviced for each
investor that does not participate in HAMP; and (4)
pool-level identification data, such as pool name and
pool number, for loans serviced for each investor that
does not participate in HAMP or whose participation
is subject to any limitations or restrictions. In addition,
servicers must provide a copy of the servicing agreement or other pool documentation to Treasury or its
agents upon request.
All servicers must update their Investor Participation Lists within 30 days of any change and
maintain both the old and revised versions of the
lists, which should clearly identify the time period
during which each list was applicable, on a system
that MHA-C may access upon request.

App.156a
1.4 Transfers of Servicing
1.4.1 Transfer of Eligible Loans
When a participating servicer transfers or assigns
mortgage loans, or servicing rights relating to mortgage
loans, that constitute Eligible Loans pursuant to the
SPA, the transferee servicer must assume the transferor’s obligations under the SPA with respect to the
transferred Eligible Loans. A transferring servicer
may not use a transfer to circumvent its existing
obligations under the SPA. If the transferee servicer
has signed its own SPA, the Eligible Loans involved
in the transfer become subject to the transferee
servicer’s SPA. If a transferee servicer has not signed
its own SPA, it will be required to execute an
assignment and assumption agreement, the form of
which is attached as Exhibit D to the SPA (AAA).
The transferee servicer is not required to execute
an assignment and assumption agreement for the
transfer of loans that are not or no longer Eligible
Loans. The transferor servicer must document the
basis for this determination in the mortgage file
and/or servicing system. Servicers are reminded to
take into consideration the expanded criteria of MHA
when determining whether a loan is an “Eligible
Loan”.

App.157a
1 Eligibility
1.1 HAMP Eligibility Criteria
1.1.1 Basic HAMP Eligibility Criteria
First lien

The mortgage loan is a first lien
mortgage loan originated on or
before January 1, 2009. This
includes mortgages secured by:


Cooperative shares,



Condominium units, and



Manufactured housing
(the first lien mortgage
loan must be secured by
the manufactured home
and the land, both of
which must be classified
as real property under
applicable state law).

The reference to “originated on
or before” refers to the date on
which the loan was first
originated (i.e., not the date a
loan may have been modified
previously).
Not condemned

The property securing the
mortgage loan has not been
condemned or is not in such
poor physical condition that it
is not habitable even if not
condemned. Servicers must
retain in the mortgage file

App.158a
and/or servicing system all
evidence related to the basis for
the determination of an
uninhabitable condition.
Financial hardship

A borrower has documented a
financial hardship and
represented that he or she does
not have sufficient liquid assets
to make the monthly mortgage
payments.

Escrow account
established

The borrower agrees to set up
an escrow account for taxes and
hazard and flood insurance
prior to the beginning of the
trial period if one does not
currently exist.

Unpaid principal
balance limits

The current unpaid principal
balance (UPB) of the mortgage
loan prior to


1 Unit $729,750



2 Units $934,200



Units $1,129,250



Units $1,403,400

Single family
Property

The mortgage loan is secured
by a one- to four-unit property.

Program cut-off
date

The borrower has submitted an
Initial Package (as defined in
Section 4) on or before
December 31, 2013 and the
Modification Effective Date is
on or before September 30, 2014

App.159a
1.1.2 HAMP Tier 1 Eligibility Criteria
A loan is eligible for Home Affordable
Modification Program (HAMP) Tier 12 if the servicer
verifies that, in addition to satisfaction of the basic
eligibility criteria for HAMP described in Section
1.1.1, all of the following criteria are met:
Not previously
HAMP modified

The mortgage loan has not been
previously modified under
HAMP. For more information,
refer to the Continued
Eligibility due to Change in
Circumstances guidance in
Section 1.2.

Delinquent or in
imminent default

The mortgage loan is
delinquent or default is
reasonably foreseeable. Loans
currently in foreclosure are
eligible.

Owner-occupied

The mortgage loan is secured by
a single family property that is
occupied by the borrower as his
or her principal residence. Additionally, a loan may be considered
for HAMP Tier 1 if:


The property was originally
non-owner occupied, but the
servicer can verify that it is

2 For clarity, a HAMP modification in existence prior to June 1,
2012, is referred to as “HAMP Tier 1” and references to “HAMP
Tier 1” refers both to HAMP modifications completed under
guidance in effect prior to June 1, 2012 and HAMP Tier 1 modifications completed after June 1, 2012.

App.160a
currently the borrower's principal residence.


Minimum monthly
Mortgage payment
ratio

The borrower is displaced
(e.g., military deployment, permanent change of station
orders, out of area job transfer
or foreign service assignment)
but was occupying the property as his or her principal
residence immediately prior to
his or her displacement, intends to occupy the property
as his or her principal residence in the future and the
borrower does not own any
other single family real estate
(evidence may include but is
not limited to: a credit report,
property title search, military
change of station orders or
employer letter).

The borrower’s monthly
mortgage payment (including
principal, interest, taxes,
insurance, and when
applicable, association fees,
existing escrow shortages) prior
to the modification is greater
than 31 percent of the
borrower’s verified monthly
gross income.

App.161a
1.1.3 HAMP Tier 2 Eligibility
A mortgage loan may be eligible for HAMP Tier
2 if (i) the borrower satisfies the basic eligibility
criteria for HAMP set forth in Section 1.1.1; (ii) the
loan did not satisfy the criteria in Section 1.1.2 for
HAMP Tier 1 or, upon evaluation for a HAMP Tier 1
modification, failed to receive a modification under
HAMP Tier 1; and (iii) the following criteria are met,
if applicable:
Owner occupied The mortgage loan is secured by a
or rental
single family property that is
property
either


Owner-occupied as set forth in
1.1.2; or



A rental property
(defined below).

A “rental property” is a property
that is used by the borrower for
rental purposes only and not occupied by the borrower, whether as a
principal residence, second home,
vacation home or otherwise.
A mortgage loan secured by a
rental property may be considered
for a HAMP Tier 2 modification if
the rental property is
(i) occupied by a tenant as their
principal residence;
(ii) occupied by the borrower's legal
dependent, parent or grandparent
as his or her principal residence

App.162a
without rent being charged or
collected; or
(iii) vacant and available for rent.
A property that is or will be
offered for rent on a seasonal basis
and is available for use by the
borrower when it is not rented is
not eligible for a HAMP modification. If the mortgage loan is
secured by a rental property, the
borrower must make the certifications described in Section 4.1.1.2.
Previous HAMP A mortgage loan has not received
Tier 2 TPP or a permanent modification or TPP
permanent
under HAMP Tier 2.
modification
Previous HAMP
Tier 1
Permanent
Modification

Previous HAMP
Tier 1 TPP

A mortgage loan on which the
borrower lost good standing under
a HAMP Tier 1 permanent modification, and, at the time of evaluation for HAMP Tier 2, at least 12
months have passed since the
HAMP Tier 1 Modification Effective
Date or the borrower has experienced a change in circumstances.
A mortgage loan that received a
HAMP Tier 1 TPP but on which
the borrower defaulted.

App.163a
Previous
A mortgage loan was evaluated for
consideration for HAMP prior to June 1, 2012 and
HAMP
was not offered a HAMP Tier 1
TPP as long as the non-approval
was not due to borrower fraud or
non-compliance with section 1481
of Dodd-Frank Act (as defined in
Section 1.7 of Chapter I).
Delinquent or
imminent default

A mortgage loan is delinquent
(which, in the case of a mortgage
loan secured by a rental property,
means two or more payments are
due and unpaid) or default is reasonably foreseeable; provided, however, that a mortgage loan secured
by a rental property that is not in
default even if default is reasonably
foreseeable is not eligible for HAMP
Tier 2. Loans currently in foreclosure are eligible.

1.2 Additional Factors Impacting HAMP Eligibility
Certain factors impacting HAMP eligibility are
described below:
No waiver of
legal rights

The servicer may not require a
borrower to waive legal rights as a
condition of HAMP.

No up-front
Contribution

The servicer may not require a
borrower to make any “good faith”
payment or contribution up-front
cash contribution to be considered
for HAMP.

App.164a
Active litigation

A borrower in active litigation
regarding the mortgage loan is
eligible for HAMP.

Redemption
rights following
foreclosure

Whether a borrower can qualify
for HAMP if the mortgage loan is
currently in the redemption period
after a foreclosure sale is dependent on the amount of time remaining in the redemption period and
other legal requirements of the
state in which the property is
located. When permissible under
state law, the servicer should, on a
case-by-case basis, seek investor
approval prior to evaluating a
borrower for HAMP during a
redemption period.

Balloon loans

Balloon loans that have matured or
that mature during the HAMP trial
period are eligible for HAMP
subject to investor guidelines.

Borrower is a
natural person

The borrower must be a natural
person. Mortgage loans made to,
or secured by properties owned by,
corporations, partnerships, limited liability companies or other
business entities) are not eligible
for assistance under HAMP.

App.165a
Inter vivos
Revocable
Trust

A loan secured by a property
owned by an inter vivos revocable
trust is eligible for HAMP as long
as the borrower:


Is a trustee of the trust and



Is a primary beneficiary of the
trust,

In the case of such a property
where the borrower, as trustee,
occupies the property as his or her
principal residence—, the loan
must first be considered for HAMP
Tier 1 and, if the loan is determined to not qualify for HAMP
Tier 1, must then be considered
for HAMP Tier 2.
Where the borrower, as trustee,
does not occupy the property as
his or her principal residence, the
loan may only be considered for
HAMP Tier 2.
The borrower must sign all
HAMP-related documents in both
an individual capacity and as
trustee of the inter vivos revocable
trust.
Subordinate
Liens

HAMP does not require extinguishment of subordinate lien instruments
as a condition of modification. However, servicers must follow investor
guidance to ensure first lien priority.

App.166a
HUD
Counseling

Borrowers with back-end ratios of
55 percent or more must agree in
writing to obtain HUD-approved
counseling as a condition of receiving a permanent modification,
even if they recently completed
counseling. See Section 6.7 for more
information.

Charged off
loans

Servicers are not required to
consider for HAMP a mortgage
loan that has been charged off if
the servicer has released the
borrower from liability for the
debt and provided a copy of such
release to the borrower. The servicer must retain in the mortgage
file and/or servicing system all
evidence related to the charge off
including the release of liability.

